No. _______

IN THE

Supreme Court of the United States
_________
BLAKE CRETACCI,
Petitioner,
v.
JOE CALL, ET AL.,
Respondents.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
SARAH M. KONSKY
DAVID A. STRAUSS
JENNER & BLOCK SUPREME
COURT AND APPELLATE
CLINIC AT THE
UNIVERSITY OF CHICAGO
LAW SCHOOL
1111 E. 60th St.
Chicago, IL 60637

MATTHEW S. HELLMAN
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com

i
QUESTION PRESENTED
In Houston v. Lack, 487 U.S. 266 (1988), this Court
held that filings by prisoners receive the benefit of the
mailbox rule, which means that a prisoner’s filing is
deemed timely if it is placed in the prison mail system by
the date it is due. This case presents a recurring
question on which the courts of appeals are split. In
some instances, a prisoner who is nominally represented
by counsel submits a filing through the prison mail
system. Such filings can result from miscommunication
over representation status, abandonment by counsel, or
as was the case here, counsel’s inability to submit the
filing.
The question presented is: Whether a prisoner who
submits a filing through the prison mail system loses the
benefit of the mailbox rule if he has counsel?

ii
PARTIES TO THE PROCEEDING
Petitioner
Cretacci.

(plaintiff-appellant

below)

is

Blake

Respondents (defendants-appellees below) are
Deputy Joe Call; Deputy Brian Keith; Deputy Jared
Nelson; Deputy Jesse Harden; Deputy Cody Faust; and
Coffee County, Tennessee.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................... i
PARTIES TO THE PROCEEDING ..............................ii
TABLE OF AUTHORITIES ...........................................v
PETITION FOR CERTIORARI..................................... 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
INTRODUCTION .............................................................. 2
STATEMENT OF THE CASE ........................................ 4
A. Factual Background ................................................ 4
B. Lower Court Decisions ........................................... 6
REASONS FOR GRANTING THE PETITION.......... 8
I. The Circuits Are Split on the Question
Presented ........................................................................ 8
II. The Petition Presents an Important and
Recurring Question of Federal Law ......................... 11
III. The Decision Below Is Wrong ................................... 12
IV. The Petition Squarely Presents the Issue ............... 15
CONCLUSION ................................................................. 15
Appendix A
Cretacci v. Call, 988 F.3d 860 (6th Cir. 2021) ......... 1a

iv
Appendix B
Cretacci v. Call, No. 16-CV-97, 2020 WL
2561945 (E.D. Tenn. May 20, 2020) ........................ 27a
Appendix C
Denial of Rehearing, Cretacci v. Call, Case
No. 20-5669 (6th Cir. Mar. 17, 2021) ....................... 63a

v
TABLE OF AUTHORITIES
CASES

Burgs v. Johnson County, 79 F.3d 701 (8th Cir.
1996) .................................................................. 3, 9, 11
Cousin v. Lensing, 310 F.3d 843 (5th Cir.
2002) .................................................................... 10, 11
Houston v. Lack, 487 U.S. 266 (1988) .................... 2, 12
Michelson v. Duncan, No. 17-CV-50, 2020 WL
1692345 (W.D.N.C. Apr. 7, 2020), aff’d sub
nom. Michelson v. Coon, No. 20-6480, __ F.
App’x __, 2021 WL 2981501 (4th Cir. July
15, 2021) ...............................................................11-12
Rutledge v. United States, 230 F.3d 1041 (7th
Cir. 2000) ........................................................... 10, 11
Stillman v. LaMarque, 319 F.3d 1199 (9th Cir.
2003) .............................................................. 10, 11, 13
Telfair v. Tandy, 797 F. Supp. 2d 508 (D.N.J.
2011) .......................................................................... 12
United States v. Camilo, 686 F. App’x 645
(11th Cir. 2017) .................................................. 10, 11
United States v. Carter, 474 F. App’x 331 (4th
Cir. 2012) .......................................................... 3, 9, 11
United States v. Craig, 368 F.3d 738 (7th Cir.
2004) .................................................................... 10, 11
United States v. Flowers, 428 F. App’x 526 (6th
Cir. 2011) .................................................................. 15

vi
United States v. Kimberlin, 898 F.2d 1262 (7th
Cir. 1990), superseded by rule as stated in
United States v. Craig, 368 F.3d 738 (7th
Cir. 2004) .......................................................... 3, 9, 11
United States v. Moore, 24 F.3d 624 (4th Cir.
1994) ...................................................... 3, 9, 10, 11, 14
United States v. Rodriguez-Aguirre, 30 F.
App’x 803 (10th Cir. 2002) ............................... 10, 11
Vaughan v. Ricketts, 950 F.2d 1464 (9th Cir.
1991) .......................................................................... 11
STATUTES
28 U.S.C. § 1254(1) .......................................................... 1
OTHER A UTHORITIES
Fed. R. App. P. 4(c) ...................................................... 11
Fed. R. App. P. 4(c)(1) .............................................. 7, 10
Fed. R. App. P. 4 advisory committee’s notes
to 1993 amendment ................................................. 14

1
PETITION FOR CERTIORARI
Blake Cretacci petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the Sixth Circuit is reported at
Cretacci v. Call, 988 F.3d 860 (3d Cir. 2021) and is
reproduced in the Appendix attached hereto at Pet.
App. 1a-26a. The opinion of the district court is not
reported in the Federal Supplement but is available at
2020 WL 2561945 and is reproduced at Pet. App. 27a62a.
JURISDICTION
The judgment of the court of appeals was entered on
February 17, 2021. The court of appeals denied the
petition for panel rehearing on March 17, 2021. Pet. App.
63a. On March 19, 2020, this Court extended the time
within which to file petition for a writ of certiorari to and
including August 13, 2021. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

2
INTRODUCTION
In Houston v. Lack, 487 U.S. 266 (1988), this Court
held that the mailbox rule applies to a notice of appeal
mailed by a prisoner. Under that rule, the notice is
deemed filed as of the date it is delivered to the prison
authorities for mailing rather than the date it is received
by the court. The Court explained that because the
inmate’s “control over the processing of his notice
necessarily ceases as soon as he hands it over to the only
public officials to whom he has access—the prison
authorities,” the filing should be treated as timely if it is
delivered to those authorities by its due date. Id. at 271.
Houston’s rule has since been applied to myriad kinds of
legal filings, including civil complaints.
A question that has repeatedly arisen and divided
the circuits since Houston is whether a prisoner who has
counsel is entitled to the mailbox rule for filings sent by
the prisoner through the prison system. Inmates who
nominally have counsel may nonetheless submit filings
via the prison mail system for a variety of reasons.
There may be confusion—particularly at the
commencement of a case—as to whether the prisoner is
actually represented. An inmate’s counsel may have
effectively abandoned his client. Or, as was the case
here, counsel may not be capable of filing the document.
Petitioner Blake Cretacci was a pre-trial detainee
who filed a § 1983 civil complaint alleging gross abuse by
his jailors. Mr. Cretacci had the aid of counsel in
preparing the complaint, but his counsel was unable to
file the pleading because he was not a member of the bar
of the relevant judicial district. Although Mr. Cretacci
submitted his pro se complaint via the inmate mail

3
system before the limitations period on his claims
expired, the pleading was received by the district court
after the statutory deadline. The Sixth Circuit held that
because Mr. Cretacci was “represented” within the
meaning of governing state law, he was not entitled to
the mailbox rule, and therefore that his claims were
time-barred.
In so holding, the Sixth Circuit deepened an
acknowledged split on the scope of the mailbox rule.
Had Mr. Cretacci filed his complaint in the Fourth
Circuit, he would have received the benefit of the
mailbox rule. That court has held that a filing submitted
via the prison mail system should be subject to the
mailbox rule regardless if the prisoner has counsel.
United States v. Carter, 474 F. App’x 331, 333 (4th Cir.
2012). The Fourth Circuit has explained that “the same
concerns” about control over timely delivery “are
present” whenever a prisoner submits a filing via the
inmate mail system regardless whether the prisoner has
counsel. United States v. Moore, 24 F.3d 624, 625-26 (4th
Cir. 1994).
Three other circuits, including now the Sixth, hold
that a prisoner filing does not receive the benefit of the
mailbox rule if the prisoner is represented by counsel.
These circuits reason that “[r]epresented prisoners are
in no different position than litigants who are at liberty.”
United States v. Kimberlin, 898 F.2d 1262, 1265 (7th Cir.
1990), superseded by rule as stated in United States v.
Craig, 368 F.3d 738 (7th Cir. 2004); see also Burgs v.
Johnson Cnty., 79 F.3d 701, 702 (8th Cir. 1996) (per
curiam) (finding that represented prisoners are “in the

4
same position as other litigants who rely on their
attorneys”).
This Court should resolve whether prisoners who
have counsel are entitled to the mailbox rule, and hold
that they are. The approach taken by the Sixth Circuit
forces a complicated inquiry into whether the prisoner
was represented within the meaning of state law. As the
concurring opinion below noted, that inquiry can amount
to a trap for the unwary prisoner and turn on formalisms
that do not reflect the prisoner’s actual ability to rely on
this counsel. Moreover, once a prisoner submits a filing
via the inmate mail system, he has no control over the
filing regardless of whether he is represented by
counsel. A prisoner who incorrectly believes he is not
represented or, as here, had to file the document because
his counsel could not, should not have the courthouse
doors closed to him on limitations grounds if he timely
submits his filing via the inmate mail system.
Petitioner respectfully asks that this Court grant the
petition.
STATEMENT OF THE CASE
A. Factual Background
The underlying claims in this suit concern an incident
on September 29, 2015 at the Coffee County jail, where
Mr. Cretacci was being held as a pre-trial detainee. Pl.’s
Resp. to Am. Mot. for Summ. J. at 2, Cretacci v. Call, No.
16-CV-97 (E.D. Tenn. Sept. 3, 2019), ECF No. 69 (“Pl.’s
Am. Summ. J. Resp.”). On that day, three inmates
organized a “peaceful riot” in the dayroom, a common
area, to protest conditions in the jail. Mr. Cretacci was
not part of that group and wanted no part in the riot, but

5
was unable to return to his cell because it was locked,
and he could not signal the guards to unlock it. Pet. App.
29a.
When the guards entered the dayroom in response to
the riot, Mr. Cretacci was peaceful and compliant. Am.
Compl. ¶ 7, Cretacci v. Call, No. 16-CV-97 (E.D. Tenn.
Mar. 11, 2017), ECF No. 18 (“Am. Compl.”); see also Pet.
App. 29a (“[T]he inmates complied within a minute or
two”). Despite Mr. Cretacci’s compliance, guards threw
him to the ground, shot him in the face with pepperballs
at point-blank range and sprayed his eyes with mace.1
Am. Compl. ¶ 8; Pet. App. 29a.
The guards then punished the entire cell block by
turning off the toilets, showers, and sinks, and depriving
the inmates of hygiene items like toilet paper for several
days. As a result, the inmates lived and ate surrounded
by human waste and covered in mace. Pl.’s Am. Summ.
J. Resp. at 4.
On September 29, 2016, the final day of the statute of
limitations period for his claims regarding the riot, Mr.
Cretacci signed and delivered to the prison authorities a
pro se complaint alleging § 1983 violations by the guards
and Coffee County. The complaint had been drafted by
an attorney, Drew Justice, but earlier that day Mr.
Justice realized that he was not a member of the bar of
the Eastern District of Tennessee, where the complaint
was to be filed. Because there was insufficient time for
him to be admitted pro hac vice, Mr. Justice handed the
1

Pepperballs are similar to paint balls in size and operation.
However, they are filled with mace. Pl.’s Am. Summ. J. Resp. at 23.

6
complaint to Mr. Cretacci at the jail, explaining that Mr.
Cretacci could file his complaint pro se within the
limitations period under the prison mailbox rule. On
October 3, 2016, the district court received Mr.
Cretacci’s complaint by mail, which was signed by him,
not his attorney. Compl., Cretacci v. Call, No. 16-CV-97
(E.D. Tenn. Oct. 3, 2016), ECF No. 2.
B. Lower Court Decisions
On May 20, 2020, the district court granted
respondents’ (defendants-appellees below) motion for
summary judgment. The court held that Mr. Cretacci’s
claims stemming from the September 29, 2015 abuse
were time-barred. The court first held that under
Tennessee law Mr. Cretacci “was represented at the
time of filing” notwithstanding the fact that his counsel
was unable to file his complaint. Pet. App. 48a. The
district court then observed there was “a circuit split as
to whether the prison mailbox rule can be utilized by
represented prisoners.” Pet. App. 50a. The court noted
that the Sixth Circuit had not weighed in on the split,
but concluded that although the Sixth Circuit had
expressly extended the mailbox rule to civil complaints
filed by prisoners, that extension “was a narrow one”
and did not encompass complaints filed by prisoners
even nominally represented by counsel. Pet. App. 51a53a. Finally, the Court dismissed on other grounds
additional claims brought by Mr. Cretacci concerning
subsequent unrelated conduct by the defendants. Pet.
App. 53a-62a.
The Sixth Circuit affirmed the district court’s
decision. The court of appeals agreed that Mr. Cretacci
was represented when he filed his complaint because an

7
attorney had drafted the complaint and instructed Mr.
Cretacci to file it. Pet. App. 10a (citing Tenn. Code Ann.
§ 23-3-101(3)). The panel then held that a represented
prisoner is not entitled to the benefit of the mailbox rule.
In its view, “if a prisoner does not need to use the prison
mail system, and instead relies on counsel to file a
pleading on his or her behalf, the prison is no longer
responsible for any delays and the rationale of the prison
mailbox rule does not apply.” Pet. App. 12a.
The court acknowledged a circuit split on whether
the mailbox rule extends to represented prisoners. It
observed that although several courts of appeals had
declined to apply the rule in that context, the Fourth and
Seventh Circuits had “extended the prison mailbox rule
to represented prisoners.” Id. The Sixth Circuit sought
to distinguish those decisions as concerning notices of
appeal. Id. Federal Rule of Appellate Procedure 4(c),
which governs the timeliness of notices of appeal, was
amended after Houston to provide that “[i]f an inmate
files a notice of appeal in either a civil or a criminal case,
the notice is timely if it is deposited in the institution’s
internal mail system on or before the last day for filing.”
Fed. R. App. P. 4(c)(1). The Sixth Circuit concluded that
the Fourth and Seventh Circuits’ decision to apply the
mailbox rule rested on Rule 4’s generic reference to
“inmate[s]” rather than unrepresented inmates in
particular. Pet. App. 12a-13a.
Judge Readler concurred, adding that he was
sympathetic to “the challenges inmates face in pursuing
legal remedies[,]” and that a mailbox rule “makes a great
deal of sense.” Pet. App. 22a (quoting Houston, 487 U.S.
at 277 (Scalia, J., dissenting)) (internal quotation marks

8
omitted). Judge Readler emphasized that a rule turning
on representation is hard to administer. “[Our rule]
seemingly leaves judges with the unenviable task of
determining whether an inmate was ‘represented’ at the
time of filing.
Which, as this case and others
demonstrate, is often no easy task. Is an inmate
‘represented,’ for instance, if her counsel is not admitted
in the state in which the inmate’s case must be filed?”
Pet. App. 24a (internal citation omitted). Judge Readler
also expressed concern that not applying the mailbox
rule would lead to formalisms. “[T]he seemingly obvious
solution for an inmate in this circumstance—a solution
that may well have saved Cretacci’s complaint here—
would be for the inmate to fire her counsel immediately
before she turns her complaint over to a prison official.”
Pet. App. 24a-25a. Judge Readler concluded however
that a mailbox rule should be adopted via a federal rule
of procedure rather than a judicial decision. Pet. App.
22a-24a.
This petition was thereafter timely filed.
REASONS FOR GRANTING THE PETITION
I. The Circuits Are Split on the Question Presented
Review is warranted because the circuits are divided
on the question of whether Houston’s prison mailbox
rule applies to represented prisoners. The Fourth
Circuit applies the prison mailbox rule to represented
prisoners, while the Sixth, Seventh, and Eighth Circuits
do not.
If Mr. Cretacci had filed his complaint in the Fourth
Circuit, his claims would have been deemed timely under
the prison mailbox rule. In Moore, the Fourth Circuit

9
held that “Houston governs all notices of appeal filed by
prisoners in a criminal proceeding, without regard to
whether they are represented by counsel.” 24 F.3d at
626. While Moore concerned a notice of appeal, the
Fourth Circuit found that the Houston rule should apply
broadly to all kinds of filings, noting that “[t]he
mechanism” the prisoner uses “makes no difference” to
the applicability of Houston. Id. at 625. The Moore court
also found that “there [was] little justification for
limiting Houston’s applicability to situations where the
prisoner is not represented by counsel,” explaining that
if “it is possible that prison officials could choose to delay
a prisoner’s attempt to communicate with the courts, it
is just as possible that they could choose to delay his
access to counsel.” Id. Following Moore, the Fourth
Circuit has reaffirmed the application of Houston to
represented prisoners like Mr. Cretacci. See Carter, 474
F. App’x at 333 (citing Moore, 24 F.3d at 625-26).
The Sixth Circuit in this case joined two other
circuits in holding that the pro se filings of represented
prisoners are excluded from the prison mailbox rule. See
Kimberlin, 898 F.2d at 1265 (declining to apply the
mailbox rule because “[r]epresented prisoners are in no
different position than litigants who are at liberty”);
Burgs, 79 F.3d at 702 (holding that the plaintiff was “not
entitled to the benefit of Houston because he was
represented by counsel”).2
2

In its characterization of the split, the Sixth Circuit cited cases
from two circuits that withheld the mailbox rule from represented
prisoners under different circumstances. One case concerned the

10
In this case, the Sixth Circuit panel contended that
the Fourth Circuit’s extension of the mailbox rule to
represented prisoners turned on the wording of Federal
Rule of Appellate Procedure 4(c), which states that the
mailbox rule applies to “inmates” filing notices of appeal.
Pet. App. 12a; Fed. R. App. P. 4(c)(1). But as discussed
above, Moore did not rest on the language of Rule 4.
Rather, the opinion rested on the broader principle that
Houston’s reasoning applies to all prisoners who submit
filings via the prison mail system, regardless of the
particular kind of filing at issue, and regardless if they
are represented.3 See Moore, 24 F.3d at 624 (“The
mechanism … – whether habeas petition or notice of
appeal – makes no difference [to whether Houston
applies].”); id. at 625 (“We note that whenever a prisoner
attempts to file a notice of appeal from prison he is acting
‘without the aid of counsel,’” so “[t]he same concerns are
present in either case,” regardless of representation.).
Indeed, the Fourth Circuit went out of its way to make
clear that its holding was based on Supreme Court
timeliness of a filing by counsel for a prisoner. Cousin v. Lensing,
310 F.3d 843, 847 (5th Cir. 2002). Another involved a prisoner who
mailed a filing to his counsel rather than to the court. Stillman v.
LaMarque, 319 F.3d 1199, 1202 (9th Cir. 2003). Two other circuits
have issued non-precedential opinions declining to apply the
mailbox rule to a represented prisoner. United States v. RodriguezAguirre, 30 F. App’x 803, 805 (10th Cir. 2002); United States v.
Camilo, 686 F. App’x 645, 646 (11th Cir. 2017).
3

The Sixth Circuit also characterized the Seventh Circuit as
applying the mailbox rule to represented prisoners solely in the
context of notices of appeal governed by Rule 4. Pet. App. 12a. That
characterization is correct. Compare United States v. Craig, 368
F.3d 738, 740 (7th Cir. 2004) with Rutledge v. United States, 230
F.3d 1041, 1052 (7th Cir. 2000).

11
precedent and not the recently promulgated Fed. R.
App. P. 4(c). Id. at 626 n.3 (remarking that the court’s
holding “is consistent” with Fed. R. App. P. 4(c) and
expressing “confiden[ce] that [its] interpretation of
Houston is the correct one.”).
A filing’s timeliness should not turn on whether it is
sent to a federal court in Tennessee instead of Virginia.
This Court should resolve the split of authority on this
issue.
II. The Petition Presents an Important
Recurring Question of Federal Law

and

Review is also merited because whether pro se filings
by represented inmates like Mr. Cretacci can benefit
from the prison mailbox rule is an important question.
The question of whether the rule applies to a
represented prisoner comes up with regularity in the
federal courts. See, e.g., Craig, 368 F.3d at 740; Stillman
v. LaMarque, 319 F.3d 1199, 1202 (9th Cir. 2003); Cousin,
310 F.3d at 847; Rutledge, 230 F.3d at 1052; Burgs, 79
F.3d at 702; Moore, 24 F.3d at 626; Kimberlin, 898 F.2d
at 1265; Camilo, 686 F. App’x at 646; Carter, 474 F.
App’x at 333; Rodriguez-Aguirre, 30 F. App’x at 805.
And the Federal Reports are replete with scenarios
in which a prisoner who is nominally represented might
mail a filing himself. For example, the prisoner might be
effectively abandoned by his counsel. E.g., Vaughan v.
Ricketts, 950 F.2d 1464, 1466–68 (9th Cir. 1991). Or the
prisoner might seek to move against his counsel. E.g.,
Michelson v. Duncan, No. 17-CV-50, 2020 WL 1692345,
at *2 (W.D.N.C. Apr. 7, 2020), aff’d sub nom. Michelson
v. Coon, No. 20-6480, __ F. App’x __, 2021 WL 2981501

12
(4th Cir. July 15, 2021). Or the prisoner might be
represented by multiple counsel at the same time and
become confused as to who should file papers on his
behalf. E.g., Telfair v. Tandy, 797 F. Supp. 2d 508, 511
(D.N.J. 2011).
The Court should address this frequently recurring
issue. Clarity is particularly important here because
jurisdictional rules should be clear and because the
consequences of a limitations ruling are so severe. A
claim deemed untimely will never be heard on the
merits, no matter how meritorious it is. Only this Court
can clear up the confusion about how Houston applies,
and it should do so.
III. The Decision Below Is Wrong
Review is also warranted because the Sixth Circuit’s
decision is incorrect. The premise of the Sixth Circuit’s
decision is that “if a prisoner does not need to use the
prison mail system, and instead relies on counsel to file a
pleading on his or her behalf, the prison is no longer
responsible for any delays and the rationale of the prison
mailbox rule does not apply.” Pet. App. 12a.
But, as this case and the others cited above
demonstrate,
nominally
represented
prisoners
sometimes do need to use the prison mail system
because they cannot or will not rely on their counsel to
undertake the filing. By definition, that inmate will not
be able to place his filing “directly into the hands of the
United States Postal Service” nor “personally travel to
the courthouse” to deliver it. Houston, 487 U.S. at 271.
And once a document is delivered to the prison
authorities, the prospect of delay remains the same

13
regardless if the prisoner has counsel. Houston’s
rationales apply with equal force to the inmate who has
no counsel and the represented inmate who does not rely
upon counsel, and it is irrational and unfair to treat
timeliness of the two inmates’ filings differently.
That is particularly so because the deciding factor in
the Sixth Circuit’s analysis—whether the prisoner was
represented—will often involve “thorny” questions that
an inmate is unlikely to perceive, let alone correctly
resolve, on his own, and that require a court to
undertake a complex analysis. For example, as both the
majority and concurring opinions pointed to below,
courts have found a prisoner “represented” even where
counsel explicitly stated she was not able to “assume
responsibility for representing him” but nevertheless
assisted with his pro se habeas petitions. Stillman, 319
F.3d at 1200 (9th Cir. 2003); see also Pet. App. 10a, 24a.
In this case, the lawyer who drafted the complaint
told Mr. Cretacci that he could not file the pleading;
while Mr. Cretacci was represented within the meaning
of Tennessee law, he could not have been expected to
know that, and he should not be punished by his lawyer’s
inability to submit a filing. And, as Judge Readler
observed, if Mr. Cretacci had concluded that he was still
represented, he apparently could have terminated that
representation in order to get the benefit of the mailbox
rule. Pet. App. 24a-25a. Whether a court has the
opportunity to address serious claims of abuse Mr.
Cretacci has alleged should not turn on such fortuities
and formalisms.
Moreover, even where a prisoner obtains or is
provided counsel, the fact of representation does not in

14
and of itself cure the limitations imposed by
incarceration. Communications between a prisoner and
his lawyer may be subject to interference—intentional
or otherwise—that would not be possible but for the
same conditions motivating the Supreme Court’s
decision in Houston. See Moore, 24 F.3d at 626 (“The
Supreme Court did not expressly limit Houston’s
application to cases involving unrepresented prisoners,
and the Seventh Circuit apparently did not consider the
possibility that even represented prisoners might be
prevented from timely communicating with counsel.”).
The concurrence below suggested that the mailbox
rule could be authorized via an amendment to the
Federal Rules, akin to the amendment to Fed. R. App.
P. 4, which extends the mailbox rule to all inmates for
notices of appeal. Pet. App. 25a-26a. But that
amendment was merely intended to “reflect” this
Court’s decision in Houston. Fed. R. App. P. 4 advisory
committee’s note to 1993 amendment.4 And Houston in
turn has been interpreted to apply to filings of all kinds,
not just notices of appeal. Having held in Houston that
prisoners should be entitled to the mailbox rule, this
Court should make clear that Houston applies to filings
by inmates whether or not they have counsel.

4

That the text of Fed. R. App. P. 4(c) currently applies only to
notices of appeal is thus an outgrowth of the fact that Houston,
itself, was a case about a notice of appeal. As noted, that rule was
intended to “reflect” Houston, and given that it is well-settled that
Houston applies to all prisoner filings and not just notices of appeal,
this Court should confirm that Houston applies to all inmates who
file using the prison mail system, regardless if they are
represented.

15
Finally, applying the mailbox rule to all filings made
via the prison system will not lead to abuse. A court
always has the discretion not to allow a pro se filing,
including because the inmate has representation. See,
e.g., United States v. Flowers, 428 F. App’x 526, 530 (6th
Cir. 2011) (citing United States v. Martinez, 588 F.3d
301, 328 (6th Cir. 2009) (further citations omitted)). But
if a court would otherwise allow the filing, it should not
be deemed untimely simply because the inmate chose to
use the prison mail system to file it.
IV. The Petition Squarely Presents the Issue
This case is the ideal vehicle to resolve the circuit
split over whether represented prisoners may benefit
from the prison mailbox rule. The question is squarely
presented and dispositive.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition.

16
Respectfully submitted,
SARAH M. KONSKY
DAVID A. STRAUSS
JENNER & BLOCK
SUPREME COURT AND
APPELLATE CLINIC AT
THE UNIVERSITY OF
CHICAGO LAW SCHOOL
1111 E. 60th St.
Chicago, IL 606037

August 13, 2021

MATTHEW S. HELLMAN
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
___________________
BLAKE CRETACCI,
Plaintiff-Appellant,
No. 20-5669
v.
JOE CALL; BRIAN KEITH; JARED
NELSON; JESSE HARDEN; CODY FAUST;
COFFEE COUNTY, TENNESSEE,
Defendants-Appellees.
Appeal from the United States District Court for the
Eastern District of Tennessee at Winchester.
No. 4:16-cv-00097—Christopher Harper Steger,
Magistrate Judge.
Argued: January 12, 2021
Decided and Filed: February 17, 2021
Rehearing Denied March 17, 2021
Before: SUHRHEINRICH, McKEAGUE, and
READLER, Circuit Judges.
___________________
COUNSEL

2a
ARGUED: Drew Justice, JUSTICE LAW OFFICE,
Murfreesboro, Tennessee, for Appellant. Darrell G.
Townsend, HOWELL & FISHER, PLLC, Nashville,
Tennessee, for Appellees. ON BRIEF: Drew Justice,
JUSTICE LAW OFFICE, Murfreesboro, Tennessee,
for Appellant. Darrell G. Townsend, Nicholas A. Lastra,
HOWELL & FISHER, PLLC, Nashville, Tennessee,
for Appellees.
McKEAGUE, J., delivered the opinion of the court in
which SUHRHEINRICH and READLER, JJ., joined.
READLER, J. (pp. 13–17), delivered a separate
concurring opinion.
___________________
OPINION
___________________
McKEAGUE, Circuit Judge. Blake Cretacci sued
Coffee County and Coffee County Jail Deputies Joe Call,
Brian Keith, Jared Nelson, Jesse Harden, and Cody
Faust (“Appellees”) pursuant to 42 U.S.C. § 1983 for
constitutional violations that occurred while Cretacci
was a pretrial detainee at Coffee County Jail. The
district court granted summary judgment in favor of
Appellees, finding that two claims were barred by the
statute of limitations and that there were no
constitutional violations underlying the remaining two
claims.
The untimely claims implicate the issue of whether
the prison mailbox rule applies to prisoners who are
represented by counsel, an issue of first impression in
the Sixth Circuit. A majority of circuits have declined to
extend the rule to represented prisoners, finding that

3a
the rule established in Houston v. Lack, 487 U.S. 266
(1988), is premised on the relaxed procedural
requirements traditionally afforded to pro se prisoners
who have no choice but to rely on the prison authorities
to file their pleadings. We agree and hold that, in the
context of filing civil complaints in federal court, the
prison mailbox rule applies only to prisoners who are not
represented by counsel.
Finding no error in the district court’s judgment, we
AFFIRM.
I.
Cretacci’s claims arise from three separate incidents
occurring on three separate days—September 29, 2015,
October 11, 2015, and January 14, 2017—while Cretacci
was a pretrial detainee at the Coffee County Jail.
On September 29, 2015, three inmates in the BC pod1
of the Coffee County Jail—Jeremy Mathis, BJ Murray,
and Josh Byford—decided to lead a “peaceful riot” to
protest the conditions in the jail. The three ringleaders
of the riot told the other inmates that if they refused to
participate they would be beaten up. The riot involved
inmates refusing to return to their cells for lockdown
when instructed. Cretacci, who was housed in the BC
pod, did not want to participate in the riot but took the
threats of the ring leaders seriously, so he did not return
to his cell. When officers entered the pod, they grabbed
Cretacci and put him on the floor. While Cretacci was on
1

“The pod is one large room, referred to as the dayroom, with a twostory ceiling.” Officers refers to pods as letters, such as BA, BB, BC
and BD.

4a
the ground, he was struck twice with pepperballs.
Cretacci also alleges that after the incident the water in
the sinks and toilets of the cells were turned off for at
least three days, that the inmates were denied toilet
paper, and that they were not allowed to shower.
After the September 29 riot, Cretacci wanted to be
moved to a different pod, but never submitted a written
request. Instead, Cretacci told multiple officers that he
“need[ed] to get out of [the] pod,” but he does not
remember to whom he said it. Cretacci “would just say
it out loud,” to “[a]ny cop that came in pretty much at
certain times.” Cretacci does not recall telling any
officers that he feared for his safety, because he was not
“afraid of these three people,” but remembers telling
officers that “[the] pod is crazy,” and that “[t]hese people
are nuts. I need to get out of this pod. You guys need to
move me into another pod.”
Early in the morning on October 11, 2015, the three
ringleaders of the riot were in the dayroom talking
loudly. Cretacci walked out of his cell to ask them to be
quiet and then returned to his cell. A few minutes later,
Mathis came into Cretacci’s cell and assaulted him.
Cretacci was able to “hit [Mathis] out the door” and back
into the dayroom, but Byford and Murray then came to
Mathis’s assistance, and the three of them attempted to
push Cretacci back into his cell. Cretacci forced his way
out into the dayroom and “started to have more words
with” his assailants. When the four of them got out into
the dayroom, officers entered the pod and Cretacci
walked back into his cell. The physical fighting had
ended before the officers came in. The officers asked
Cretacci what happened, and Cretacci replied: “I don’t

5a
know what the f*** is going on.” The officers spoke to
Mathis, Murray, and Byford in the dayroom, but
Cretacci could not hear what they said. After the
officers left the pod, Mathis, Murray, and Byford
threatened to kill Cretacci.
Thirty minutes later, breakfast was served. Cretacci
grabbed his tray of food and set it down on the table.
Cretacci then went into his cell to grab his spoon and
Mathis followed him. Mathis hit Cretacci and Cretacci
fell to the floor. Mathis punched Cretacci “four or five
times” and then left the cell. Cretacci got up and started
walking back to the table when Officer Keith came up
behind him, grabbed him, and put him up against the
wall to keep him from being assaulted. Officers Keith
and Call took Cretacci to the medical unit for
examination.
Cretacci was then permanently
transferred to the AD pod.
Officer Call’s incident report stated that “a verbal
altercation began with Inmates Mathis, Byford, Murray,
and Cretacci, regarding a conflict that started this
morning around [6:00 a.m.].” Officer Call testified that
he learned about the 6:00 a.m. altercation when he spoke
to Cretacci after removing him from the pod.
On January 14, 2017, corrections officers overheard
an inmate threaten to stab another inmate in the AD
pod, where Cretacci was housed. Officer Faust ordered
Officer Dubicki to make an announcement over the
loudspeaker in the dayroom of the AD pod instructing
the inmates to lie on their stomachs. Officer Faust heard

6a
Officer Dubicki give this order, but Cretacci did not.2
Officer Dubicki observed that the inmates were not
complying with his order and alerted Officer Faust.
Officer Faust and five other officers then entered the
pod, and Officer Faust repeated Officer Dubicki’s order
to get on the ground. Cretacci was sitting in the
dayroom playing chess when he saw the officers enter
the pod and heard Officer Faust’s order. Cretacci did not
comply with the order, so Officer Faust fired pepperballs
towards Cretacci. Cretacci alleges he was hit once or
twice on the arm. Cretacci then stood up from his chair
and began yelling at the officers, so Officer Faust
ordered him to lay down. When Cretacci refused, Officer
Faust again launched pepperballs towards Cretacci,
hitting him once on the back. Cretacci then finally
complied and laid back down on the floor.
Cretacci secured an attorney, Andrew Justice, to
represent him in a lawsuit against the jail. Justice
drafted a complaint and intended to file it electronically,
but on the evening of September 28, 2016, the day before
the statute of limitations expired on Cretacci’s claims
stemming from the September 29, 2015 incident, Justice
realized he was not admitted to practice law in the
district that encompassed Coffee County Jail, the
Eastern District of Tennessee. Justice was only
admitted in the Middle District of Tennessee, where he
mistakenly believed Coffee County Jail was located. The
next day, Justice looked into being admitted into the
2

In a declaration, Cretacci stated: “the dayroom does not have a
loudspeaker.” It is not clear whether he was referencing the
dayroom in the BC pod, the AD pod, or speaking generally about all
the jail’s pods.

7a
Eastern District pro hac vice so that he could
electronically file the complaint, but did not think he
could complete the requirements in time. Accordingly,
Justice drove to the Winchester courthouse in the
Eastern District to attempt to file the complaint in
person. However, the Winchester courthouse does not
have a staffed clerk’s office and documents cannot be
filed in-person there. Justice determined he would not
be able to drive to the Chattanooga courthouse before it
closed, so instead he took the complaint to Cretacci at
the Coffee County Jail for Cretacci to file. Justice gave
Cretacci an envelope stamped and addressed to the
Chattanooga courthouse and told him to deliver it to the
correctional officers immediately, explaining that
because he was an inmate, he could take advantage of
the prison mailbox rule, which allows inmate filings to be
assessed for timeliness on the day they are handed over
to the jail authorities rather than on the day the district
court receives them. Cretacci did so on the night of
September 29, and the district court received the
complaint on October 3. Justice monitored the case on
PACER, and on November 22, 2016, Justice was
admitted pro hac vice into the Eastern District. He
entered his appearance in the case that same day.
Plaintiff’s complaint alleged three counts under 42
U.S.C. § 1983: a deliberate indifference claim against
Officers Call, Keith, Nelson, Harden and Coffee County3
for the assaults that occurred on October 11, 2015; an
excessive force claim against Coffee County arising from
3

Cretacci withdrew his deliberate indifference claim against Coffee
County.

8a
the September 29, 2015 riot; and a claim against Coffee
County for failure to “distribute essential supplies to the
inmates” after the September 29, 2015 riot. After the
January 14, 2017 incident, Cretacci amended his
complaint to include Count IV, alleging excessive force
against Officer Faust and Coffee County.4
Defendants moved for summary judgment, arguing
that Counts II and III were barred by the statute of
limitations because Cretacci was represented by counsel
when he filed his complaint and therefore could not
benefit from the prison mailbox rule, and that there
were no constitutional violations underlying Counts I
and IV. The district court agreed and granted summary
judgment in full in favor of Defendants. Cretacci now
appeals.
II.
In Houston v. Lack, the Supreme Court held that
notices of appeal from pro se prisoners are considered
filed when the prisoner delivers the notice to prison
authorities for mailing. 487 U.S. 266, 270 (1988). This is
now known as the prison mailbox rule.5 In adopting the
rule, the Court emphasized the unique challenges faced
4

Count IV alleges Coffee County is also responsible for Officer
Faust’s use of excessive force, but Cretacci has withdrawn that
argument on appeal.
5

The prison mailbox rule applicable to the filing of a notice of appeal
was later codified in the Federal Rules of Appellate Procedure. See
Fed. R. App. P. 4 advisory committee’s note to 1993 amendment.
Today, that Rule states, in relevant part: “If an inmate files a notice
of appeal in either a civil or a criminal case, the notice is timely if it
is deposited in the institution’s internal mail system on or before the
last day for filing.” Fed. R. App. P. 4(c)(1).

9a
by pro se prisoners seeking to appeal: they cannot travel
to the courthouse to file the notice, they cannot place the
filing “directly into the hands of the United States Postal
Service” and track its progress, nor “do they have
lawyers who can take these precautions for them.” Id.
at 271. Because pro se prisoners are “[u]nskilled in law,
unaided by counsel, and unable to leave the prison,” they
have “no choice but to entrust the forwarding of [their]
notice of appeal to prison authorities whom [they] cannot
control nor supervise and who may have every incentive
to delay.” Id.
The prison mailbox rule has since been extended in
some circuits to apply to filings other than notices of
appeal. See, e.g., Richard v. Ray, 290 F.3d 810, 813 (6th
Cir. 2002) (per curiam) (civil complaints); Jones v.
Bertrand, 171 F.3d 499, 501–02 (7th Cir. 1999) (habeas
corpus petitions); In re Flanagan, 999 F.2d 753, 755 (3d
Cir. 1993) (appeals of bankruptcy order); Tapia–Ortiz v.
Doe, 171 F.3d 150, 152 (2d Cir. 1999) (administrative
filings under the Federal Tort Claims Act). Following
the amendment to Federal Rule of Appellate Procedure
4, the Fourth and Seventh Circuits have also applied the
mailbox rule to prisoners represented by counsel in the
context of a notice of appeal in criminal proceedings. See
United States v. Moore, 24 F.3d 624, 626 (4th Cir. 1994);
United States v. Craig, 368 F.3d 738, 740 (7th Cir. 2004).
But see Rutledge v. United States, 230 F.3d 1041, 1052
(7th Cir. 2000) (declining to extend the prison mailbox
rule to a motion to amend filed by a represented inmate).
Cretacci first argues that he should receive the
benefit of the prison mailbox rule because he was not
represented by Justice when he filed his complaint. In

10a
the alternative, if he was represented, Cretacci asks this
Court to extend the application of the prison mailbox
rule to prisoners proceeding with assistance of counsel.
We address each argument in turn.
A.
Cretacci was not proceeding without assistance of
counsel. Justice and Cretacci had an explicit attorneyclient relationship in which Justice agreed to represent
Cretacci in his lawsuit against the jail. Importantly,
Justice developed Cretacci’s case against Coffee County,
identified the proper legal causes of action to bring, and
wrote the complaint. When an attorney agrees to
represent a client and then prepares legal documents on
his behalf, the client is not proceeding without assistance
of counsel. See Tenn. Code Ann. § 23-3-101(3) (defining
“practice of law” as “the appearance as an advocate in a
representative capacity or the drawing of papers,
pleadings or documents or the performance of any act in
such capacity in connection with proceedings pending or
prospective before any court”); see also Stillman v.
LaMarque, 319 F.3d 1199, 1200–01 (9th Cir. 2003) (using
California’s definition of practicing law, “the preparing
of legal documents and the giving of legal advice,” to hold
that prisoner was represented for the purposes of the
prison mailbox rule because an attorney prepared and
filed a habeas petition on his behalf, despite the
attorney’s specific admonition that she would not
“assume responsibility for representing him”).
And the fact that Cretacci himself filed the complaint
does not lead to a different result. Justice attempted to
file the complaint several times, and only when those
attempts proved unsuccessful, advised Cretacci to file it

11a
with prison officials in an effort to trigger the prison
mailbox rule.
Moreover, Justice’s and Cretacci’s
attorney-client relationship did not end after Justice
drafted the complaint. Justice represented Cretacci
throughout the proceedings at the district court and
continues to represent him here on appeal. See
Stillman, 319 F.3d at 1201 n.3 (“Our conclusion that a
lawyer-client relationship existed is buttressed by the
fact that [the prisoner’s] lawyer later assisted him with
numerous other legal matters.”).
We affirm the district court’s finding that Cretacci
was represented by counsel when he filed his complaint.
Thus, we turn now to the question of whether
represented prisoners can take advantage of the prison
mailbox rule.
B.
The majority of circuits have declined to extend the
prison mailbox rule to prisoners proceeding with
counsel.6 These circuits reasoned that the rationale of
Houston was premised on the plight of pro se prisoners
specifically, who have no means to file legal documents
except through the prison mail system and who cannot
6

These circuits have concluded in contexts other than the one we
consider today (the filing of a civil complaint) that the mailbox rule
does not apply to represented prisoners. See Cousin v. Lensing, 310
F.3d 843, 847 (5th Cir. 2002) (habeas petition); Rutledge, 230 F.3d at
1052 (motion to amend); Burgs v. Johnson County, 79 F.3d 701, 702
(8th Cir. 1996) (per curiam) (notice of appeal); Stillman, 319 F.3d at
1201 (habeas petition); United States v. Rodriguez-Aguirre, 30 F.
App’x 803, 805 (10th Cir. 2002) (habeas petition); United States v.
Camilo, 686 F. App’x 645, 646 (11th Cir. 2017) (filings objecting to a
plea agreement and prison sentence).

12a
monitor the status of their mailings to ensure timely
delivery. See, e.g., Cousin v. Lensing, 310 F.3d 843, 847
(5th Cir. 2002); United States v. Camilo, 686 F. App’x
645, 646 (11th Cir. 2017). Represented prisoners, on the
other hand, are not dependent on the prison mail system
and can rely on their attorneys to file the necessary
pleadings on time. See Burgs v. Johnson County, 79
F.3d 701, 702 (8th Cir. 1996) (per curiam); United States
v. Rodriguez-Aguirre, 30 F. App’x 803, 805 (10th Cir.
2002).
The two circuits that have extended the prison
mailbox rule to represented prisoners did so in the
context of notices of appeal, not the filing of civil
complaints, and relied on the text of Federal Rule of
Appellate Procedure 4, which was amended after
Houston to add subsection (c). Rule 4, these circuits
reasoned, does not distinguish between pro se and
represented prisoners: “If an inmate files a notice of
appeal . . . [it] is timely if it is deposited in the
institution’s internal mail system on or before the last
day for filing.” See Moore, 24 F.3d at 626; Craig, 368 F.3d
at 740.
We agree with the majority of circuits. The prison
mailbox rule was created to prevent pro se prisoners
from being penalized by any delays in filing caused by
the prison mail system. But if a prisoner does not need
to use the prison mail system, and instead relies on
counsel to file a pleading on his or her behalf, the prison
is no longer responsible for any delays and the rationale
of the prison mailbox rule does not apply. And because
this case is not governed by Appellate Rule 4(c), it is
readily distinguished from Moore and Craig.

13a
Accordingly, we hold that, in the context of the filing
of civil complaints, the prison mailbox rule applies only
to prisoners who are not represented by counsel and are
proceeding pro se.
III.
We turn now to the merits of Cretacci’s
constitutional claims. This Court reviews a district
court’s grant of summary judgment de novo, “viewing all
the evidence in the light most favorable to the
nonmoving party and drawing ‘all justifiable inferences’
in his favor.” Fisher v. Nissan N. Am., Inc., 951 F.3d
409, 416 (6th Cir. 2020) (quoting Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986)). The central
question is “whether the evidence presents a sufficient
factual disagreement to require submission of the case
to the jury, or whether the evidence is so one-sided that
the moving parties should prevail as a matter of law.”
Payne v. Novartis Pharms. Corp., 767 F.3d 526, 530 (6th
Cir. 2014).
A.
In Counts II and III, Cretacci brings claims for
excessive force and for failure to “distribute essential
supplies to the inmates” against Coffee County for the
events arising from the September 29, 2015 riot and the
three subsequent days. Because Cretacci cannot take
advantage of the prison mailbox rule, his complaint was
filed on October 3, 2016, when it was received by the
district court. Counts II and III are therefore barred by
the statute of limitations, which expired on September
29, 2016, or October 2, 2016, at the latest. See Tenn. Code

14a
Ann. § 28-3-104(a)(1); Eidson v. Tenn. Dep’t of
Children’s Servs., 510 F.3d 631, 634–35 (6th Cir. 2007).
B.
In Count I, Cretacci alleges that Officers Call, Keith,
Nelson, and Harden showed deliberate indifference to
his safety when they allowed him to be attacked by
Mathis, Murray, and Byford on October 11.
Cretacci has the burden of “presenting evidence from
which a reasonable juror could conclude that the
individual defendants were deliberately indifferent to a
substantial risk of serious harm to [him] and that they
disregarded that risk by failing to take reasonable
measures to protect him.” Richko v. Wayne County, 819
F.3d 907, 915 (6th Cir. 2016) (citing Farmer v. Brennan,
511 U.S. 825, 842 (1994)). Cretacci must satisfy both an
objective component and subjective component: (1) that
the risk of harm was objectively, sufficiently serious, and
(2) that “‘the official being sued subjectively perceived
facts from which to infer a substantial risk to the
prisoner,’ . . . the official ‘did in fact draw the inference,’
and . . . the official ‘then disregarded that risk.’” Id.
(quoting Rouster v. County of Saginaw, 749 F.3d 437,
446 (6th Cir. 2014)); accord Roberts v. Coffee County, 826
F. App’x 549, 552 (6th Cir. 2020).
Cretacci cannot satisfy the subjective component.
Cretacci has not put forth any evidence that Appellee
officers knew that Cretacci was attacked by Mathis,
Murray, and Byford at 6:00 a.m. before breakfast.
Cretacci himself testified that the physical violence had
ended by the time the officers entered the pod. And
when the officers asked Cretacci what had happened, he

15a
did not tell them that he was assaulted, instead replying
that he had no idea what was going on. Cretacci argues
that because Officer Call’s incident report referenced
the 6:00 a.m. attack, Officer Call must have been aware
of the attack before Cretacci was assaulted for the
second time. But Officer Call testified that he received
that information from Cretacci after removing him from
the pod, and Cretacci has not offered any evidence to the
contrary.
Cretacci also argues that the district court erred by
basing its holding on the fact that “the guards could not
have seen the fight because the cell door was closed.”
But the district court did not make such a finding. In its
order granting summary judgment, the court wrote:
“the cell has a solid door except for a very narrow
window. There is no evidence that the officers could see
inside the cell when the first assault happened.” And the
court did not base its holding on the fact that the officers
could not have seen through the small window. It found
that the officers did not perceive facts from which to
infer Cretacci was at risk of serious harm because
Cretacci presented no evidence that the officers had
seen the fight, especially considering that Cretacci
testified that when the officers entered the pod, the
inmates were in the dayroom and the fight was only
verbal.
Thus, because Cretacci failed to provide evidence
showing that the officers perceived facts from which
they could infer Cretacci was at risk of being assaulted,
we affirm the district court’s grant of summary
judgment to Appellees on Count I.

16a
C.
In Count IV, Cretacci alleges that Officer Faust used
excessive force when he struck Cretacci with
pepperballs on January 14, 2017 following the security
threat in which officers overheard an inmate threaten to
stab another inmate.
“[T]he Due Process Clause protects a pretrial
detainee from the use of excessive force that amounts to
punishment.” Kingsley v. Hendrickson, 576 U.S. 389,
397 (2015) (quoting Graham v. Connor, 490 U.S. 386, 395
n.10 (1989)). To prevail on an excessive force claim, a
pretrial detainee must show “that the force purposely or
knowingly used against him was objectively
unreasonable.”
Id. at 396–97. “[O]bjective
reasonableness turns on the ‘facts and circumstances of
each particular case,’” id. at 397 (quoting Graham, 490
U.S. at 396), including
the relationship between the need for the use of
force and the amount of force used; the extent of
the plaintiff’s injury; any effort made by the
officer to temper or to limit the amount of force;
the severity of the security problem at issue; the
threat reasonably perceived by the officer; and
whether the plaintiff was actively resisting.
Id. Courts must make this totality-of-the-circumstances
determination based on what a reasonable officer on the
scene knew at the time and account for the jail’s
legitimate interest in maintaining their facility,
“deferring to ‘policies and practices that . . . are needed
to preserve internal order and discipline and to maintain

17a
institutional security.’” Id. (quoting Bell v. Wolfish, 441
U.S. 520, 540, 547 (1979)).
Here, it was reasonable for Officer Faust to use force
against Cretacci when he did not obey the order to get
on the ground. Based on the threat the officers
overheard, Officer Faust had a legitimate interest in
maintaining order to prevent violence and protect the
inmates. Further, Officer Faust used a non-lethal
weapon against Cretacci, a pepperball launcher, which
led only to minor injuries—bruises that lasted for a few
days.
Cretacci makes much of the fact that he did not hear
Officer Dubicki’s order to get on the ground over the
loudspeaker. He claims that there is an evidentiary
dispute over whether the guards even gave such a
command, and therefore summary judgment should not
have been granted. However, viewing the record in the
light most favorable to Cretacci, and assuming no
announcement was ever made, it is undisputed that
Officer Faust made the announcement when he entered
the pod, and Cretacci stated that he heard that order.
Moreover, Officer Faust had no reason to believe that
Officer Dubicki never gave the order over the
loudspeaker because Officer Faust heard it himself.
Cretacci next argues that the second time Officer
Faust deployed pepperballs against him was excessive
force because Officer Faust did not give him an
opportunity to comply with his order. But Cretacci was
not in the process of complying with Officer Faust’s
order when he was hit with a pepperball the second time;
he was beginning to stand up and yell at Faust. And
“[a]ctive resistance to an officer’s command can

18a
legitimize” an officer’s use of force. Hanson v. Madison
Cnty. Det. Ctr., 736 F. App’x 521, 531 (6th Cir. 2018)
(quoting Goodwin v. City of Painesville, 781 F.3d 314,
323 (6th Cir. 2015)). “Such resistance can take the form
of ‘verbal hostility’ or ‘a deliberate act of defiance.’” Id.
(emphasis omitted) (quoting Goodwin, 781 F.3d at 323).
Officer Faust did not act unreasonably in hitting
Cretacci with a pepperball for a second time after
Cretacci actively resisted the order to get on the ground
by yelling and standing up.
Considering the totality of the circumstances, Officer
Faust did not use excessive force against Cretacci when
he did not obey the order to get on the ground. We
affirm the district court’s grant of summary judgment to
Appellees on Count IV.
IV.
For the foregoing reasons, we AFFIRM the decision
of the district court.

19a
___________________
CONCURRENCE
___________________
CHAD A. READLER, Circuit Judge, concurring. I
concur in full with the majority opinion. I write
separately to emphasize that any rewriting of our
federal filing requirements to create exceptions for
incarcerated individuals should come from Congress or
the Judicial Conference’s Committee on Rules of
Practice and Procedure, commonly known as the
“Standing Committee,” rather than individual judges.
1. Including the Supreme Court in Houston v. Lack,
487 U.S. 266 (1988), various federal courts have been
tinkering with the otherwise clear filing requirements in
the respective Federal Rules of Civil and Appellate
Procedure. In Houston, the Supreme Court effectively
rewrote the then-existing versions of Federal Rules of
Appellate Procedure 3(a) and 4(a)(1), which together
required that a notice of appeal in a civil case “be filed
with the clerk of the district court within 30 days after
the date of entry of the judgment or order appealed
from.” Id. at 272 (quoting Fed. R. App. P. 4(a)(1) (1986)).
Houston interpreted those Rules to mean that a
prisoner, upon handing his notice of appeal to a prison
official, has “filed his notice . . . [with] the District
Court.” Id. at 270 (emphasis added). That creative
rewriting of the Federal Rules set the foundation for
what has come to be known as the “prison mailbox rule.”
See United States v. Smotherman, 838 F.3d 736, 737 (6th
Cir. 2016).

20a
Our Court too has not been shy about rewriting
federal filing requirements. Taking our cue from
Houston, we extended the “mailbox rule” from the
notice of appeal setting to instances when “civil
complaints [are] filed by pro se petitioners incarcerated
at the time of filing.” Richard v. Ray, 290 F.3d. 810, 813
(6th Cir. 2002) (per curiam). As then-Federal Rule of
Civil Procedure 5(e) explained, “[t]he filing of papers
with the court as required by these rules shall be made
by filing them with the clerk of court.” Fed. R. Civ. P.
5(e) (2000) (emphasis added). In departing from that
plain text to deem a prisoner to have “filed” a complaint
with the court simply by handing those papers to a
prison official, we invoked the policy concerns
“highlighted by the Supreme Court in Houston v. Lack.”
Richard, 290 F.3d at 813. Those policy concerns coupled
with the notion that “Houston gives no indication, in
either text or analytical framework, that it should be
limited to the habeas context,” seemingly gave us license
to ignore the text of Civil Rule 5(e) and overhaul the
filing requirements for civil complaints by inmates. Id.
That is a curious conclusion—and not just because it
ignores the Rule’s text in favor of a judge’s policy
preferences. As a matter of interpreting precedent,
simply because the Supreme Court cracks open a door in
one context does not mean we should kick the door wide
open at the next possible opportunity. Today, we
understandably curtail any further expansion of this
atextual, judge-inspired rewriting of the Federal Rules.
Reason for caution in this setting is further reflected
by the fact that Richard and cases like it have the
potential to upset substantive state law rules. See 28

21a
U.S.C. § 2072(b) (requiring that rules of procedure
created by the Supreme Court “shall not abridge,
enlarge or modify any substantive right”). By allowing
a civil complaint to be deemed “filed” before it is
received by a court clerk, Richard arguably created a
tolling amendment to a state’s statute of limitations. To
be sure, one way to read Richard is that it simply
interprets the meaning of “filing” under the Federal
Rules to include an inmate handing her complaint to a
prison official. But another way to understand the
decision is that it effectively extends the period for filing
set by state law. In Richard, Kentucky law required
that the inmate’s medical malpractice claim be filed
within one year of May 20, 1999, yet the complaint was
accepted as timely despite being stamped “filed” with
the federal district court on May 23, 2000. 290 F.3d at
812–13. In that way, the rule from Richard arguably
tolled the applicable state statute of limitations.
All of this is to say that, to my mind, it is dangerous
practice for federal judges to be rewriting the Federal
Rules on their own whims. In addition to potentially
undermining principles of state law, doing so effectively
implements policy judgments regarding the equities of
prisoner litigation. Those policy judgments, however,
are better made by subject-matter experts: Congress, or
in its absence, the Standing Committee. Especially so,
it seems, when federal courts, in making those policy
judgments, also “expand and contract the scope of their
own competence.” Houston, 487 U.S. at 279 (Scalia, J.,
dissenting). Allowing individual judges to rewrite the
rules of procedure also undermines the overarching goal
of “uniform meaning” for “ordinary statutory deadlines”

22a
as well as “court-created rules.” Id. A contrary
patchwork system of federal rules, as Richard and other
cases invite, has far less appeal. Why, for example,
would we prefer a system in which an unrepresented
federal prisoner in Ohio can file her complaint simply by
handing it to a prison official, whereas a prisoner in
neighboring Pennsylvania cannot? See Jackson v.
Nicoletti, 875 F. Supp. 1107, 1109–14 (E.D. Pa. 1994)
(declining to extend the prison mailbox rule to the filing
of a civil complaint). Yet that is the natural result of ad
hoc, atextual, court-created filing rules.
2. Despite my disagreement with the process that
gave rise to the “mailbox rule,” I am not blind to the
challenges inmates face in pursuing legal remedies. See,
e.g., McQuiggin v. Perkins, 569 U.S. 383 (2013).
Accommodating those challenges when possible, in fact,
“makes a good deal of sense.” Houston, 487 U.S. at 277
(Scalia, J., dissenting). As a policy matter, one can see
why a litigant who cannot personally ensure a timely
filing with the court should benefit from a filing rule that
accounts for her unique circumstance. But reconciling
those policy concerns should come from Congress, or, as
often occurs, the Standing Committee, whose proposals
take effect when, once reported by the Supreme Court,
are not altered by Congress in the ensuing seven
months. See 28 U.S.C. §§ 2071–74; How the Rulemaking
Process Works, United States Courts, https://www.us
courts.gov/rules-policies/about-rulemaking-process/
how-rulemaking-process-works (last visited Feb. 16,
2021). Just as it was difficult “to understand why the
[Supreme] Court” in Houston “felt the need to shortcircuit the orderly process of rule amendment in order

23a
to provide immediate relief in the present case,” 487 U.S.
at 284 (Scalia, J., dissenting), I share that same confusion
over our decision in Richard. But I also have reason to
believe that the Standing Committee would be up to the
task of resolving whether to alter the procedural rules
applicable to the filing of civil complaints by incarcerated
individuals.
Indeed, one need look no further than the Standing
Committee’s amendment to Appellate Rule 4, which
accommodated the challenges an inmate faces in filing a
notice of appeal. See Fed. R. App. P. 4 advisory
committee’s note to 1993 amendment. Rule 4(c) now
provides: “If an inmate files a notice of appeal in either a
civil or a criminal case, the notice is timely if it is
deposited in the institution’s internal mail system on or
before the last day for filing.” Fed. R. App. P. 4(c) (2019).
In enacting amended Rule 4, the Standing Committee
was also able to address relevant considerations
unaddressed by Houston, for example, how an inmate
certifies the date of filing, and how the mailbox rule
affects when other parties’ time to file an appeal begins
to run. See id.
A similar process would provide uniform direction on
whether to extend the “mailbox rule” to the filing of a
civil complaint. Cf. Smith v. State, 47 A.3d 481, 487 (Del.
2012) (referring the issue to the state rules committee to
consider whether the court system “should consider
adopting the prison mailbox rule as a rule of procedure”).
Unlike a panel of appellate judges, the Standing
Committee may study a proposed rule’s impact, hear
from interested constituencies, consult experts, and
then debate whether a rule amendment ultimately

24a
should be adopted. That process also affords Congress a
voice, as all new proposed rules must be submitted to
Congress for review before enactment. 28 U.S.C. § 2074.
And it has the benefit of uniformity. See Budinich v.
Becton Dickinson & Co., 486 U.S. 196, 202 (1988)
(explaining that a “uniform rule” preserves “operational
consistency and predictability”); Hanna v. Plumer, 380
U.S. 460, 472 (1965) (“One of the shaping purposes of the
Federal Rules is to bring about uniformity in the federal
courts by getting away from local rules.” (citation
omitted)). The Standing Committee stepping in would
also surely curtail the temptation for judges to tinker
with our otherwise uniform rules of procedure.
3. Were the Standing Committee, following its
review, inclined to extend the prison mailbox rule to a
prisoner’s filing of a civil complaint, it should consider
doing so irrespective of whether that inmate is
represented. As today’s case reflects, any other
approach seemingly leaves judges with the unenviable
task of determining whether an inmate was
“represented” at the time of filing. Which, as this case
and others demonstrate, is often no easy task. See, e.g.,
Stillman v. LaMarque, 319 F.3d 1199, 1201 & n.3 (9th
Cir. 2003). Is an inmate “represented,” for instance, if
her counsel is not admitted in the state in which the
inmate’s case must be filed? Or if she has consulted with
a lawyer only informally? Or with a family member with
a law degree who has offered to assist the inmate, but
not to formally represent her? And the seemingly
obvious solution for an inmate in this circumstance—a
solution that may well have saved Cretacci’s complaint
here—would be for the inmate to fire her counsel

25a
immediately before she turns her complaint over to a
prison official. After all, that ostensibly would leave the
inmate unrepresented, and thus free to avail herself of
the prison mailbox rule. See Richard, 290 F.3d at 813.
This is the approach the Standing Committee
followed in revising Federal Rule of Appellate
Procedure 4. By its plain terms, Rule 4(c)’s articulation
of the mailbox rule applies to “an inmate,” whether pro
se or represented, when she files a notice of appeal. See
United States v. Craig, 368 F.3d 738, 740 (7th Cir. 2004)
(Easterbrook, J.) (“A court ought not pencil
‘unrepresented’ or any extra word into the text of Rule
4(c), which as written is neither incoherent nor
absurd.”); United States v. Moore, 24 F.3d 624, 626 & n.3
(4th Cir. 1994) (applying the prison mailbox rule to a
represented inmate and recognizing its holding to be
“consistent” with the amendment to Rule 4). Taking
that same approach here would instill a bright-line rule
that asks only whether the litigant filing the complaint
is an inmate, not whether the inmate is also
unrepresented. See Antonin Scalia, The Rule of Law as
a Law of Rules, 56 U. Chi. L. Rev. 1175, 1178–80 (1989)
(recognizing bright-line rules as advantageous because
they create predictability and consistency, provide
assurance to litigants that their case was decided fairly,
and constrain judges from indulging their personal
preferences). Doing so would avoid tasking courts with
resolving thorny questions of representation. And it
would avoid incentivizing inmates to game the system as
to whether they were represented at the time of filing.
Of course, there may well be other considerations at
play. This is simply one judge’s view. But that give and

26a
take can be debated by the Standing Committee, if it so
chooses. Better them, as I see it, than us.

27a
Appendix B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT WINCHESTER
)
)
Plaintiff,
)
v.
) Case No. 4:16-cv-97JOE CALL, BRIAN
) CHS
KEITH, JARED NELSON, )
JESSE HARDEN, CODY
) Filed 05/20/2020
FAUST, and COFFEE
)
COUNTY,
)
Defendants. )
BLAKE CRETACCI,

MEMORANDUM OPINION
I. Introduction.
Defendants, Coffee County Deputies Joe Call, Brian
Keith, Jared Nelson, Cody Faust and Coffee County,
move for summary judgment [Doc. 67] in this action
brought by Plaintiff Blake Cretacci pursuant to 42
U.S.C. § 1983 for alleged constitutional violations while
Plaintiff was a pretrial detainee in the Coffee County
jail. For the reasons stated herein, Defendants’ Motion
for Summary Judgment shall be GRANTED.
II. Background
A. Facts
When reviewing a motion for summary judgment,
the Court must consider the facts in the light most
favorable to the nonmoving party who is, in this case,

28a
Plaintiff Cretacci. See Morris v. Crete Carrier Corp., 105
F.3d 279, 280-81 (6th Cir. 1997). This case arises from
incidents occurring on three separate days—September
29, 2015, October 11, 2015, and January 14, 2017—while
Plaintiff was incarcerated at the Coffee County Jail as a
pretrial detainee.

1. September 29, 2015, Incident
On September 29, 2015, while Plaintiff was
incarcerated in BC pod at the Coffee County jail, some
inmates decided to hold a “peaceful riot” to protest
conditions at the jail. Defendants have submitted two
videos of this incident which provide a view of the pod.
Based on that video, the Court makes the following
observations about the pod:


The pod is one large room, referred to as the
dayroom, with a two-story ceiling.



Round tables with fixed seats are situated in the
dayroom. The rear area of the pod consists of two
stories of individual cells running the length of
the room (the cell wall).



The cells have solid doors except for a long, very
narrow rectangular window in each cell door.



On the first floor, the cell doors open into the
dayroom where the tables are located.



On the upper level, the cell doors open onto a
concrete balcony with a metal railing running the
length of the second story cell wall. An inmate
standing on the second story balcony can look
down into the dayroom.

29a
[See DVD videos of riot—Notice of Manual Filing, Doc.
47]
The “riot” involved the inmates’ refusal to return to
their cells for lockdown when instructed. [Doc. 68-7,
Cretacci Dep. at 41]. There were three ring leaders of
this “riot”: Jeremy Mathis, BJ Murray, and Josh Byford.
[Id. at 47]. They told the other inmates that, if they
refused to participate in the riot, they would get beatenup later. [Id. at 54-56]. Because Plaintiff took this threat
seriously, he did not return to his cell when the guards
instructed them it was time for lock up. [Id.]. Some of
the inmates (not Plaintiff) put soap, clothes and other
items on the floor in front of the main entrance door to
the pod to impede the officers when they attempted to
enter the pod. [See DVD videos]. Some inmates hung
sheets on the railing of the second-floor balcony to stop
pepperballs that the guards might fire at the inmates
[Id.]. For the approximate two hour duration of the
“riot,” Plaintiff sat at a table or walked slowly around the
dayroom. [Id.]. Because he had closed his cell door
earlier, he needed a guard’s assistance to reopen it.
[Doc. 68-7, Cretacci Dep. at 52]. At some point, he
attempted unsuccessfully to signal surreptitiously to the
guards to unlock his cell so that he could return to it. [Id.
at 52, 55-56]. After about two hours, guards burst into
the dayroom from doors on either side of the dayroom.
[See DVD videos]. Some were carrying pepperball
launchers. [Id.]. The guards ordered the inmates to lie
on the floor, and the inmates complied within a minute
or two. [Id.]. Plaintiff asserts that he did not resist, but
that he was struck point-blank multiple times with
pepperballs containing mace. [Doc. 68-7, Cretacci dep.

30a
at 42]. He further alleges that the guards beat other
non-resisting inmates. [Id. at 42, 44-45, 73].
According to Plaintiff, after the inmates returned to
their cells following the incident, the water in the sinks
and toilets was turned off for two days and the toilets
backed up. [Doc. 68-7, Cretacci dep. at 68-71]. The
inmates were made to eat in their cells while being
exposed to the fumes from human waste. [Id.]. They
were also denied toilet paper. [Id. at 45-6]. They were
not allowed to shower, and mace burned Cretacci’s skin
for at least a day. [Id. at 69-70].

2. October 11, 2015, Incident
In his deposition testimony, Plaintiff stated that,
following the riot on September 29, 2015, he notified the
guards multiple times that he needed to be moved from
BC pod; however, he made no written request and he
could not remember names of specific guards whom he
notified. [Id. at 48]. He also testified that he told guards
that the rioting inmates were going to do bad things to
people who did not participate in the riot, but he could
not remember whom he told. [Id. at 117]. In response
to a question about whether he had specifically told a
Coffee County employee that he was concerned for his
safety due to threats by Mathis, Murray, or Byford,
Plaintiff answered,
I wouldn’t say that I’m afraid of these three
people not knowing that they was [sic] out to get
me, not knowing that they was—a fight was going
to happen in the future. But I would have told
these officers that this pod is crazy is what I kept
saying. These people are nuts. I need to get out

31a
of this pod. You guys need to move me into
another pod. These people are nuts. You’ve got
to understand.
[Id. at 165].
Very early on the morning of October 11, 2015—
before breakfast—the three ringleaders of the riot on
September 29, 2015, Mathis, Murray, and Byford, were
in the dayroom. Plaintiff left his cell to ask them to be
quiet and then returned to his cell. [Id. at 79]. Plaintiff
testified that the following event then occurred:
Jeremy Mathis came into my cell and assaulted
me, tried to swing, and I hit him out the door.
And when I did that, the other two, Josh Byford
and BJ Murray, were on the—helped him try to
hit me. They—all three of them tried to push me
back into the room, and I had fought my way out
into the dayroom.
And once we got out into the open area, I started
to have more words with them, and the door
opened up and officers came in. I immediately
turned around and walked back to my cell. The
officers came into the cell, secured me, locked the
door, then left out in the dayroom, and they left
the pod.
[Id. at 78-9].
When asked if he had spoken to the guards before
going into his cell, Plaintiff testified that the guards
asked him what was going on and he replied, “‘I don’t
know what the **** is going on.’ I remember saying
that. I don’t really know what—you know, it was pretty

32a
obvious what was happening, but I don’t know why
things were happening. I was confused about being hit.”
[Id. at 92]. Jesse Harden and Jared Nelson were two of
the guards who came into the pod. [Id. at 91]. Plaintiff
testified that the fighting had stopped before the guards
came into the pod. [Id. at 92]. The guards then talked to
Mathis, Murray, and Byford in the dayroom, but Plaintiff
could not hear what they were saying. [Id. at 92-3].
Then the guards left the dayroom, and Mathis, Murray,
and Byford threatened to kill Plaintiff. [Id. at 93].
Plaintiff did not call the guards on the intercom to tell
the guards about the threats. [Id. at 94].
About a half hour later, breakfast was served. [Id. at
79]. Plaintiff testified:
I walked from my cell and got in line. I grabbed
my tray and walked to a table and set my tray
down. I walked back to the cell to grab my spoon
to eat breakfast. When I walked into the cell,
Jeremy Mathis was walking behind me. And
when I walked into my cell and grabbed my spoon
and my cup that was on the table, I turned around
and he hit me, and I fell to the ground. He kept
hitting me. And then he had his hands on my face
and just started punching me more. He punched
me for probably four or five times maybe, I would
guess. After the first hit, I was out of it, because
he hit me hard and I’m seeing black, that’s why I
fell.
When he left the room, I had gotten back up, but
I was disoriented. And when I got out of the cell
and went back to the table, I walked back to the
table and I went to sit down, and I guess the

33a
officer had come up behind me, grabbed me, and
put me up against the wall, ‘cause I’m guessing
that somebody was about to hit me again, which I
didn’t see. Then they took me out of the pod . . . .
[Id. at 79-80]. Officers Nelson, Keith, and Call were in
the pod at that time. [Id. at 96; Call’s Incident Report,
Doc. 68-3, Page ID # 1089]. Officer Keith grabbed him
and put him against the wall to keep him from being
assaulted. [Cretacci dep. at 104-05]. Keith and Call then
escorted Plaintiff “to medical” for evaluation. [Call’s
Incident Report, Doc. 68-3, Page ID # 1089]. In his
incident report, Call described the commencement of the
incident in the dayroom at breakfast as follows:
At approximately 0715, I, Deputy Joseph Call,
was in BC pod serving breakfast with CO Nelson.
As we completed and were leaving, CO Keith
entered the pod.
At this point, a verbal
altercation began with inmates Mathis, Byford,
Murray and Cretacci, regarding a conflict that
started this morning around 0600.
[Call’s Incident Report, Doc. 68-3, Page ID # 1089].
After Plaintiff was taken to medical for evaluation, he
was permanently transferred to another pod for his
protection and was not returned to BC pod. [Doc. 68-1,
Gentry Aff. ¶ 16]. In his deposition, Officer Call
explained that he learned Plaintiff, Mathis, Murray, and
Byford had had a conflict at 6:00 a.m. by questioning
Cretacci after they removed him from BC pod. [Doc. 6810, Call dep. at 19].

34a

3. January 14, 2017, Incident
Plaintiff asserts that, on January 14, 2017, he was
sitting in the dayroom when Officer Cody Faust and
several other officers rushed into the room. Then,
without provocation, Faust shot him two or three times
with a pepperball launcher before he could comply with
Faust’s orders to get on the ground. According to
Defendants, officers had heard over the intercom a
discussion among the inmates about a plan to stab an
unidentified inmate in the dayroom. [See Doc. 68-3,
Incident Reports]. Faust initiated a search of the pod to
prevent serious bodily injury or death. [Id.]. He ordered
Officer Dubicki in the tower to make an announcement
over the speakers in the dayroom instructing the
inmates to lie on the ground on their stomachs. [Doc. 683, Incident Report, Page ID # 1085]. Faust heard
Dubicki give the order. Then Dubicki notified Faust
that some of the inmates were refusing the order. [Id.]
At that point Faust and two other officers entered the
pod with pepperball launchers.
In his deposition, Plaintiff described his view of
the incident
I’m sitting at the table. I had my chess board out.
I had my legs crossed. I’m waiting for the other
player to come down to play. The pod door opens
up and officers enter the pod, and the officers
have pepperball guns and they stop at the front
table, and everybody is looking around. The
officers are looking around. The inmates are
looking around, and everybody is questioning
like, what the **** is going on, and why do you
guys have guns? And there is [sic] two guys on

35a
the front table, sitting there, talking. And I’m
just sitting there, and I’m looking, and they’re
talking to the guys at the front table. And Officer
Faust breaks off and screams, “get on the
ground.” And he aimed his launcher right at me.
(descriptive sound) shoots me, (descriptive
sound) while I’m sitting there. And he’s yelling,
“get on the ground,” and I don’t know, but I
believe he shoots another inmate.
And as I get up, I get up off the stool that I’m
sitting on, I get up, I turn around and I go to get
down on the ground. I put my hands in front of
me and I start to bend over, and he shoots me
again, (descriptive sound). And I turn around and
I said, quote don’t ******* shoot me. Quit that
******* ****. There is nothing—I’m not even
doing nothing.”
And then I jump down on the ground. They go
around and they search everybody.
And
everybody is, like, what the **** is going on? And
then they go upstairs. They unlocked a room
upstairs and grab them in and out, and they
searched them. And then I believe they leave the
pod . . . .
And then I asked for—I believe it was the other
guy that got shot. I think he asked for the medical
attention, to have somebody come down and look
at us. And I don’t believe we were actually looked
at till the next day or the day after. It could have
been one or two days. But we did go to medical
after a day or two, and they looked at our injuries,

36a
and put a graph on them to find out how big they
were.
And then I don’t know if they gave me Ibuprofen
or not. And then that was the end of that.
[Cretacci dep. at 121-123].
Plaintiff clarified that Faust shot him once or twice
in the arm with a pepperball when he was seated at a
table while Faust was saying, “get on the ground” [Id. at
124-25]. After he was shot, he stood up and said, “dude,
what are you doing, man? Why are you shooting me?”
[Id. at 125]. Then he took off the poncho he was wearing
because it made it difficult to get on the ground and
turned around to get down when Faust shot him again
in the back. [Id. at 125]. Plaintiff stood up again and
said, “don’t ******* shoot me again.” [Id. at 126-27].
Then he hit the ground. [Id. at 127].
He did not hear the guard tower order the inmates to
get on the ground before Faust entered the dayroom.
[Id. at 128]. Nobody got on the ground until the guards
entered the dayroom and started ordering them to get
on the ground. [Id. at 128]. Plaintiff stated in his
declaration that the “dayroom does not have a
loudspeaker.” [Doc. 70-2, Cretacci Decl. ¶ 5]. However,
that statement was made in relation to the dayroom in
BC pod where the October 11, 2015, incident occurred.
[See Doc. 70-2, Cretacci Decl. ¶ 4 referencing the
dayroom on October 11, 2015]. Plaintiff was moved out
of that pod after the October 11, 2015, incident. [Doc. 681, Gentry Aff. ¶ 16]. The January 14, 2017, incident
occurred in a different pod from the one referenced in
Plaintiff’s declaration.

37a
B. Procedural History

1. Plaintiff Mailed the Complaint to Be Filed
The original complaint in this case was mailed from
the Coffee County jail and received by the United States
District Court for the Eastern District of Tennessee on
October 3, 2016. [Doc. 1]. At that time, Plaintiff’s counsel,
Drew Justice, was admitted to practice in the United
States District Court for the Middle District of
Tennessee; however, he was not admitted to practice in
the Eastern District of Tennessee. [Doc. 70-1, Justice
Aff. ¶ 3]. He mistakenly thought that Coffee County was
in the Middle District and learned late on September 28,
2016, that it is in the Eastern District of Tennessee,
Winchester Division. [Id. ¶ 4]. On September 29, he
reviewed the rules to be admitted either permanently or
pro hac vice but determined it would take more than one
day to do either. [Id. ¶ 5]. Because he was not admitted
to practice in the Eastern District, he could not file the
complaint electronically. [Id. ¶ 8]. He then took the
complaint to Plaintiff at the Coffee County Jail to sign.
[Id. ¶ 6]. After getting the complaint signed, Mr. Justice
took the signed complaint to the courthouse in
Winchester, Tennessee, to file it manually, but there was
no Clerk’s Office located in the building. [Id. ¶ 10]. At
that point, it was too late to take the complaint to
Chattanooga to be filed because the Clerk’s Office in
Chattanooga would be closed by the time he arrived
there. [Id. ¶ 10]. Mr. Justice then returned to the Coffee
County Jail; gave Plaintiff an addressed envelope and
postage; explained the prison mailbox rule; and told
Plaintiff to mail the complaint. [Id. ¶ 11]. Mr. Justice
assured him that “I would sign on to the case soon, once

38a
I got admitted to practice in East Tennessee.” [Id. ¶ 6].
The Clerk’s Office in Chattanooga received the
complaint by mail on October 3, 2016. [Doc. 1]. Mr.
Justice moved to be admitted to practice in this Court
pro hac vice on November 22, 2016 [Doc. 3], and was
admitted the following day [Doc. 4]. On March 11, 2017,
Plaintiff amended his complaint to add Count IV which
arises from the January 14, 2017, incident.

2. The District Court Dismissed QCHC, the
Medical Provider at the Coffee County Jail
Plaintiff also sued QCHC, Inc., (“QCHC”) a private
medical provider with which Coffee County had
contracted to provide medical services to the inmates at
the Coffee County jail. In the Amended Complaint,
Plaintiff alleged that Coffee County delegated
responsibility for all medical decisions to QCHC. [Doc.
18, Am. Compl. ¶ 4]. In Count I, Plaintiff brought a claim
under 42 U.S.C. § 1983 against QCHC alleging that
QCHC had acted with deliberate indifference to his
serious medical needs in violation of the Fourteenth
Amendment by the following conduct:


During the September 29, 2015 riot, Plaintiff was
shot twice in the face with two pepperballs filled
with mace, and he was denied treatment.



On October 11, 2015, Plaintiff was hit in the mouth
by an inmate known to have HIV and some of the
inmate’s blood got into Plaintiff’s mouth. He also
sustained injuries to his face causing it to become
swollen. QCHC refused to x-ray his face for three
months to determine if it had been fractured and
only gave him Ibuprofen.

39a


QCHC refused to provide him with any
prophylactic treatment to prevent him from
becoming infected with HIV despite knowledge
of the attacker’s HIV status. Further, QCHC did
not perform an HIV test on Plaintiff until a week
after the attack. Although the test was negative,
the nurse who performed the test told Plaintiff
the test was inconclusive because it had been
performed so early. Plaintiff was finally given a
second test after multiple requests ten months
later and was told it was negative, but he was not
given the test results.

Upon review of QCHC’s Motion to Dismiss, the
District Court found that QCHC’s alleged conduct,
assuming it to be true for purposes of the motion to
dismiss, did not rise to the level of a constitutional
violation, and the Court dismissed all claims against
QCHC.1 [Doc. 33, June 19, 2017, Memorandum and
Order].

3. Plaintiff’s Amended Complaint
Plaintiff asserts four counts in his Amended
Complaint. All counts are brought under 42 U.S.C.
§ 1983 alleging various constitutional deprivations.

1

Plaintiff did not bring a negligence claim against QCHC.

40a
Count I “Violation of the Right to be
Free of Punishment Without Due
Process of Law.”
In Count I, Plaintiff brings claims arising from the
October 11, 2015 assaults against Defendants Call,
Keith, Nelson, Harden and Coffee County asserting:


Defendants failed to protect Plaintiff from violent
assaults by other inmates on October 11, 2015,
and were therefore “deliberately indifferent to
the Plaintiff’s health and safety” thereby
violating his “Fourteenth Amendment right to be
free of punishment without due process of law.”
[Am. Compl. 50].



Coffee County is responsible for the acts of the
individual defendants because they were acting
according to “common jail custom.” [Am. Compl.
¶ 51].



Coffee County, as well as QCHC, acted with
deliberate indifference to Plaintiff’s serious
medical needs in violation of the Fourteenth
Amendment. The factual basis for this claim
against Coffee County is the same as the factual
basis for this claim against QCHC which the
District Court dismissed.
Count II “Excessive Force.”

In Count II, Plaintiffs brings claims arising from the
September 29, 2015 riot against Coffee County only,
alleging that Coffee County violated his Fourteenth
Amendment rights to be free of excessive force and “to

41a
be free of punishment without due process of law” for
the following reasons:


Coffee County engaged in “collective punishment
against inmates.” [Am. Compl. ¶ 62]. Collective
punishment would include denying water and
toilet paper for two days after the September 29,
2015, riot. [Id. ¶ 11].



Coffee County officers assaulted Plaintiff with
pepperballs and mace even though he was not
resisting the officers when they entered the pod
during the September 29, 2015 riot. [Am. Compl.
¶ 62].



Coffee County is liable for its officer’s conduct
because Coffee County failed to properly train or
supervise the officers, or the officers acted
according to “improper policies.” [Am. Compl.
¶ 62].
Count III—”Violation of the Right to be
Free of Punishment without Due
Process of Law.”

In Count III, Plaintiff brings claims arising from the
September 29, 2015, riot against only Coffee County
asserting that:


[b]y failing to distribute essential supplies . . such
as toilet paper and by disabling their water
supply as a form of collective punishment, [after
the September 29, 2015 riot] . . . Coffee County
violated Plaintiff Cretacci’s Eighth Amendment
right to be free of cruel and unusual punishment.”
[Am. Compl. ¶ 64].

42a


Coffee County is a liable for its officers’ conduct
because the officers were acting according to a
custom and “improper policies” and/or Coffee
County failed to properly train or supervise the
officers. [Id.].
Count
IV—”First
Amendment
Retaliation and Excessive Force”

In Count IV, Plaintiff brings claims arising from the
January 14, 2017, incident Officer Cody Faust and Coffee
County alleging that:


Faust used excessive force in violation of the
Fourteenth Amendment by shooting Plaintiff
with a riot gun containing pepperballs without
cause on January 14, 2017. [Am. Compl. ¶ 66].



Coffee County is liable for Faust’s conduct
because he was acting according to Coffee
County’s custom or policy and Coffee County
failed to properly train and/or supervise Faust.



Faust shot Plaintiff with the pepperball launcher
in retaliation for this pending lawsuit thereby
violating Plaintiff’s First Amendment rights.

In his response to Defendant’s Motion for Summary
Judgment, Plaintiff conceded he had no proof supporting
his First Amendment retaliation claim and withdrew it.
[Doc. 69, Pl.’s br. at 18].
III. Discussion
A. Standard of Review
Fed. R. Civ. P. 56(c) provides that summary
judgment will be rendered if there is no genuine issue as

43a
to any material fact and the moving party is entitled to
judgment as a matter of law. The burden is on the
moving party to show that no genuine issue of material
fact exists, and the Court must view the facts and all
inferences to be drawn therefrom in the light most
favorable to the nonmoving party. Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986); Morris v. Crete Carrier Corp., 105 F.3d 279, 28081 (6th Cir. 1997); 60 Ivy Street Corp. v. Alexander, 822
F.2d 1432, 1435 (6th Cir. 1987). The moving party may
satisfy its burden by presenting affirmative evidence
that negates an element of the nonmoving party’s claim
or by demonstrating an absence of evidence to support
the nonmoving party’s case. Celotex Corp. v. Catrett,
477 U.S. 317, 323-35 (1985); Rodgers v. Banks, 344 F.3d
587, 595 (6th Cir. 2003). There are “no express or implied
requirements in Rule 56 that the moving party support
its motion with affidavits or other similar materials
negating the opponent’s claim;” it is enough for the
movant to “point[ ] out” an absence of evidence on an
essential element of the non-movant’s claim. Celotex,
477 U.S. at 323-25; see also Harvey v. Campbell Cnty,
Tenn., 453 Fed. Appx. 557, 560 (May 10, 2011).
Once the moving party has fulfilled his initial burden
under Rule 56, the nonmoving party is not entitled to a
trial merely on the basis of allegations. The nonmoving
party is required to “go beyond the pleadings and by his
own affidavits, or by the depositions, answers to
interrogatories, and admissions on file, designate
specific facts showing that there is a genuine issue for
trial.” Celotex, 477 U.S. at 324-25; see also 60 Ivy Street,
822 F.2d at 1435. The moving party is entitled to

44a
summary judgment if the nonmoving party fails to make
a sufficient showing on an essential element of its case
with respect to which it has the burden of proof. Celotex,
477 U.S. at 323; Collyer v. Darling, 98 F.3d 211, 220 (6th
Cir. 1996).
The judge’s function at the point of summary
judgment is limited to determining whether sufficient
evidence has been presented to make the issue of fact a
proper jury question, and not to weigh the evidence,
judge the credibility of witnesses, or determine the truth
of the matter. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249 (1986); 60 Ivy Street, 822 F.2d at 1435-36.
B. Analysis
Section 1983 is a remedial statute which does not
itself create independent, substantive legal rights. To
make out a claim under 42 U.S.C. § 1983, the plaintiff is
required to show that he has been deprived of a right,
privilege, or immunity secured to him by the United
States Constitution or other federal law and that the
defendants caused the deprivation while they were
acting under color of state law. Gregory v. Shelby
County, Tenn., 220 F.3d 433, 441 (6th Cir. 2000); Baker
v. Hadley, 167 F.3d 1014, 1017 (6th Cir. 1999); Valot v.
Southeast Local School Dist. Bd. of Educ., 107 F.3d 1220,
1225 (6th Cir. 1997). In each of the Counts in his
Amended Complaint, Plaintiff has alleged constitutional
deprivations caused by state actors. There is no dispute
that the defendants are state actors. The question
before the Court is whether a constitutional deprivation
occurred and, as to those claims arising from the riot on
September 29, 2015, whether Plaintiff’s claims are
barred by the applicable statute of limitations. The

45a
Court will proceed in chronological order with respect to
the events giving rise to the claims in this action rather
than in numerical order of the Counts in the Amended
Complaint.

1. Counts II & III: Claims Arising from the
September 29, 2015 Riot
Count II (“Excessive Force”) and Count III
(“Violation of the Right to be Free of Punishment
without Due Process of Law”) both arise out of the riot
on September 29, 2015, and include conduct allegedly
occurring for two days after September 29, 2015—
possibly until October 1, 2015—i.e., shutting off water in
the cells and denying inmates toilet paper.
Defendant seeks summary judgment as to Counts II
and III on substantive and statute of limitations
grounds. The Court will not reach the merits of
Plaintiff’s claims asserted in these Counts because they
are barred by the applicable statute of limitations.
In an action under 42 U.S.C. § 1983, the Court applies
the statute of limitations for a personal injury action
under the law of the state in which the claim arises.
Eidson v. Tenn. Dep’t of Children’s Servs., 510 F.3d 631,
634 (6th Cir. 2007). In Tennessee, the limitations period
is one year. Tenn. Code Ann § 28-3-104(a); Eidson, 510
F.3d at 634-35. Though the statute of limitations is
borrowed from state law, “[t]he date on which the
statute of limitations begins to run in a § 1983 action is a
question of federal law.” Id. at 635. “Ordinarily, the
limitation period starts to run when the plaintiff knows
or has reason to know of the injury which is the basis of
his action.” Id.

46a
Plaintiff signed and delivered his complaint to prison
officials for mailing on September 29, 2016, and it was
filed by the Clerk of Court on October 3, 2016. [Doc. 2].
The Clerk’s Office received the complaint on October 3,
2016. [Doc. 1].
The parties dispute what steps Plaintiff was required
to take for the complaint to be deemed “filed” by
September 29, 2016. Plaintiff contends he was an
unrepresented prisoner and thus entitled to avail
himself of the prison mailbox rule announced in Houston
v. Lack, 487 U.S. 266, 108 S. Ct. 2379 (1988), making his
Complaint timely because it was delivered to prison
officials on September 29, 2016. Defendant argues
Plaintiff was represented by his present counsel and
thus required to file his complaint with the Clerk by
September 29, 2016.
Initially, Defendant devotes significant attention to
the “egregious fraud” allegedly perpetrated on the
Court by Plaintiff’s filing the Complaint “pro se” when
he was in fact represented by counsel. Defendant insists
this conduct was a misrepresentation to the Court,
arguing that ghostwriting is “universally condemned”
and worthy of sanctions. [Doc. 68 at 13]. Defendant
suggests Justice delayed filing a notice of appearance to
distance himself from Plaintiff’s filing, noting the more
lenient standard of review afforded to pro se litigants.
[Doc. 68 at 14]. In the course of this ad hominem attack
on Justice, Defendant mischaracterizes case law, cites
inaccurately to an ethics opinion of the Tennessee Board
of Professional Responsibility, and construes other

47a
authority quite liberally in its favor.2 But Defendant’s
strenuous opposition misses the point. The question
before the Court is simply whether Plaintiff was
represented when he filed the Complaint and, if so,
whether he was nonetheless permitted to file his
Complaint by delivering it to a prison official for mailing.
Plaintiff argues he was unrepresented at the time of
filing because his attorney was unable to represent him
in the appropriate federal court. [Doc. 69 at 10]. Justice
avers that he believed the appropriate district for filing
was the United States District Court for the Middle
2

Defendant cites the fact section of Formal Ethics Opinion 2005-F151 as though it were the guidance of the opinion itself. [Doc. 71 at
5]. The brief cites Cook v. Stegall, 295 F.3d 517 (6th Cir. 2002) and
Duhon v. Kemper, 19 F. App’x 353 (6th Cir. 2001) for the proposition
that “[a]pplication of the prison mailbox rule is narrow, and it does
not serve to protect an incarcerated inmate from the negligence of
his counsel.” Duhon makes no such holding, finding only that the
defendant waived his mailbox rule argument by failing to raise it at
the trial level. Similarly, Cook v. Stegall, has nothing to do with
negligence of counsel, relating instead to whether a complaint
mailed to a third party can be deemed filed as of the date of mailing.
Defendant cites Redmond v. United States, Case No. 4:13-cv-16,
2016 WL 9330497 (E.D. Tenn. Mar. 7, 2016) as holding that the
prisoner could not use the mailbox rule because his declaration
“failed to establish in any meaningful way how he had timely and
properly used the prison mailing system.” [Doc. 71 at 2]. In
Redmond, the Court was applying Rule 3(d) of the Section 2255
Rules, which requires timely filing to be shown by a declaration or
notarized statement that sets forth the date of deposit and states
that first-class postage has been prepaid. Redmond, 2016 WL
9330497 at *4. In a § 1983 action, the Sixth Circuit has held that the
“absent contrary evidence,” courts assume the prisoner handed the
complaint to prison officials for mailing on the date he or she signed
the complaint. Brand v. Motley, 526 F.3d 921, 925 (6th Cir. 2008).

48a
District of Tennessee, in which he was admitted to
practice. [Doc. 70-1 at ¶ 3]. He learned of his mistake
the night before the statute of limitations expired but
did not believe he could fulfill the requirements for pro
hac vice or permanent admission on time. [Id. at ¶ 5].
Knowing he could not file electronically, he drove to the
courthouse for the Winchester Division of the United
States District Court for the Eastern District of
Tennessee to attempt to file the Complaint in person.
[Id. at 10]. When he arrived in Winchester, he
discovered there is not a staffed Clerk’s office at the
courthouse. [Id. at ¶ 10]. He did not believe he could
make it to the Chattanooga Clerk’s office before it
closed, so he returned to the jail and instructed Plaintiff
on how to file the Complaint. [Id. at ¶ 10, 11].
Justice’s admission status and electronic filing
capabilities in this District do not determine whether
Plaintiff was represented at the time of filing. His legal
representation of Plaintiff is clear from the fact that he
drafted the Complaint, attempted to file it himself, and
instructed Plaintiff on how to file it. [Doc. 70-1 at ¶¶ 4,
11]. When Plaintiff delivered the Complaint for mailing,
he did so on the advice of his counsel. Plaintiff thus had
the same benefit of counsel as any other represented
litigant.
The Court finds that Plaintiff was represented by
counsel. And, because Plaintiff was represented at the
time of filing, the prisoner mailbox rule does not apply.
Consequently, the Court finds that the Complaint was
filed on October 3, 2015. In Houston v. Lack, the
Supreme Court of the United States ruled that a pro se
petitioner’s notice of appeal on habeas corpus review

49a
would be deemed filed as of the date it was delivered to
prison officials for mailing to the court. 487 U.S. 266
(1988). The Court observed that “[t]he situation of
prisoners seeking to appeal without the aid of counsel is
unique.” Id. at 270. They are unable to monitor their
notices of appeal to ensure they are timely filed and are
instead forced “to entrust their appeals to the vagaries
of the mail.” Id. at 271. Incarcerated litigants can never
really be sure that their filings will be filed on time,
relying on prison officials “who may have every
incentive to delay.” Id. Accordingly, the Court held the
appeal was timely “because the notice of appeal was filed
at the time petitioner delivered it to the prison
authorities for forwarding to the court clerk.” Id. at 276.
The United States Court of Appeals for the Sixth
Circuit has extended this holding to, inter alia, “civil
complaints filed by pro se petitioners incarcerated at the
time of filing.” Richard v. Ray, 290 F.3d 810, 813 (6th
Cir. 2002); see also Aldridge v. Gill, 24 F. App’x 428 (6th
Cir. 2001) (mailbox rule of Houston v. Lack applies to
§ 1983 suits under applicable state statute of
limitations). In Richard v. Ray, the Sixth Circuit
reasoned that all of the circumstances cited by the
Supreme Court in Houston v. Lack are also present
when a pro se prisoner files a civil complaint. Id. The
court has declined, however, to extend the rule to
instances where the prisoner mails a pleading to a third
party for filing. Cook v. Stegall, 295 F.3d 517, 521 (6th
Cir. 2002). “The rationale for the rule is that the date the
prisoner gives the petition to the prison can be readily
ascertained, and any delays in receipt by the court can
be attributed to the prison, and pro se litigants should

50a
not be penalized for a prison’s failure to act promptly on
their behalf.” Id. at 521. In contrast, when a prisoner
mails a complaint to a third party, the certainty
facilitated by the rule is undermined. Id.
There is a circuit split as to whether the prison
mailbox rule can be utilized by represented prisoners.
The United States Court of Appeals for both the Fourth
and Seventh Circuits have extended the rule to
represented prisoners. United States v. Craig, 368 F.3d
738 (7th Cir. 2004) (represented prisoners may use the
mailbox rule to file a notice of appeal that otherwise
complies with Federal Rule of Appellate Procedure
4(c)); United States v. Moore, 24 F.3d 624, 625 (4th Cir.
1994) (“[T]here is little justification for limiting
Houston’s applicability to situations where the prisoner
is not represented by counsel.”). The United States
Court of Appeals for the Eight Circuit and the Ninth
Circuit have each held that a represented prisoner may
not take advantage of the rule. Burgs v. Johnson
County, 79 F.3d 701 (8th Cir. 1996) (incarcerated
plaintiff not entitled to benefit of Houston because he
was represented by counsel); Stillman v. LaMarque, 319
F.3d 1199 (9th Cir. 2003) (“[T]o benefit from the mailbox
rule, a prisoner must . . . be proceeding without
assistance of counsel.”).
The Sixth Circuit has not directly addressed this
issue, but the court’s prior holdings suggest it would
restrict the rule’s applicability to unrepresented
prisoners. As announced in Houston v. Lack, the
mailbox rule was not expressly restricted to prisoners
proceeding pro se.
Yet when the Sixth Circuit
broadened the reach of the rule to include civil

51a
complaints, it limited that extension to prisoners
without counsel. The court held: “Houston v. Lack
applies to civil complaints filed by pro se petitioners
incarcerated at the time of filing.” Richard v. Ray, 290
F.3d at 813. To the extent Richard v. Ray reflects an
extension of Houston, that extension was a narrow one
and should be so construed.
The Sixth Circuit has also consistently focused on an
inmate’s lack of representation when discussing whether
the prison mailbox rule applies in different contexts. See
Richard v. Ray, 290 F.3d at 812-13 (Houston Court
considered “several concerns particular to the
incarcerated prisoner without counsel”); Cook v. Stegall,
295 F.3d 517, 521 (6th Cir. 2002) (mailbox rule exists
because” pro se litigants should not be penalized for a
prison’s failure to act promptly on their behalf”); Brand
v. Motley, 526 F.3d 921, 925 (2008) (mailbox rule creates
a relaxed filing standard for” pro se prisoner’s
complaint”). The Sixth Circuit recently observed that
the “mailbox rule exception is supported by important
public policy considerations that are unique to
unrepresented, incarcerated individuals . . . .” United
States v. Smotherman, 838 F.3d 736, 737 (6th Cir. 2016).
In Smotherman, the court wrote: “The prison mailbox
rule has been long established, and we have recognized
the typical rule that a pro se prisoner’s notice of appeal
is ‘filed at the time [the pro se prisoner] delivered it to
the prison authorities for forwarding to the clerk.” Id.
(quoting Houston, 487 U.S. at 276) (alteration in
original). The Sixth Circuit’s limited extension of
Houston v. Lack to civil complaints filed by pro se
prisoners, combined with its consistent articulation of

52a
the rule as available to unrepresented inmates, suggests
the court would decline to further extend the rule to a
represented prisoner plaintiff.
It appears to the Court that Justice tried to find a
practical solution to his mistake of venue, but that a
confluence of obstacles prevented the timely filing of the
Complaint. He could not file electronically in the
Eastern District because he was not admitted to
practice in this District and so could not register as an
electronic filer. See United States District Court for the
Eastern District of Tennessee Electronic Case Filing
Rules and Procedures, Rule 5, available at https://www.
tned.uscourts.gov/sites/tned/files/ecf_rules_
procedures.pdf (last accessed March 20, 2020). He could
have filed the Complaint in person at the Clerk’s office
for the Chattanooga Division of Eastern District,
contemporaneously with an application for pro hac vice
admission. Unfortunately, he instead tried to file in the
Winchester Division, which does not have a staffed
clerk’s office and does not accept in-person, paper
filings.3
Such a routine attorney error does not permit the
Court to extend the statute of limitations. See GrahamHumphreys v. Memphis Brooks Museum of Art, Inc.,
209 F.3d 552, 561 (6th Cir. 2000) (“Absent compelling
equitable considerations, a court should not extend

3

The Court’s public website provides the following information
regarding the Winchester Division under a link entitled, “Location
and Information”, “NOTICE: Any court filings in the Winchester
Division should be mailed to the Chattanooga Divisional Office”.
See https://www.tned.uscourts.gov/winchester.

53a
limitations by even a single day.”). As ever, an attorney
is not required to wait until the final day of a limitations
period to file pleadings. Because Plaintiff’s Count II
excessive force claim arose on September 29, 2015, and
his Count III due process claims arose, at the latest, on
October 1, 2015, his October 3, 2016, filing was untimely
as to these claims. Consequently, Plaintiff’s claims
brought under Counts II and III are barred by the
applicable statute of limitations.

2. Count I: Claims Arising from the October
11, 2015 Assaults (Failure to Protect) and
Deliberate Indifference to Serious Medical
Needs
i. Failure to Protect
Plaintiff alleges in Count I of his Amended Complaint
that Defendants Call, Keith, Nelson, and Harden failed
to protect him from assaults by other inmates on
October 11, 2015, and that this failure violated his
“Fourteenth Amendment right to be free of punishment
without due process of law.” [Am. Compl. ¶ 50]. Plaintiff
contends that Coffee County is liable for the individual
defendants’ failure because they were acting according
to “common jail custom.” [Id. ¶ 51].
“‘[P]rison officials have a duty to protect prisoners
from violence at the hands of other prisoners because
corrections officers have ‘stripped them of virtually
every means of self-protection and foreclosed their
access to outside aid.’” Richko v. Wayne County,
Michigan, 819 F.3d 907, 915 (6th Cir. 2016) (quoting
Farmer v. Brennan, 511 U.S. 825, 833 (1994)). A pretrial
detainee’s claim for failure to protect is recognized under

54a
the Fourteenth Amendment and is analyzed using the
same standard as the Eighth Amendment. Richko, 819
F.3d at 915; see also Dickerson v. Ky Corr. Psychiatric
Ctr., No. 17-5412, 2017 WL 8792665, at * 2 (Oct. 12, 2017).
The plaintiff bears the burden “to present[ ] evidence
from which a reasonable juror could conclude that the
individual defendants were deliberately indifferent to a
substantial risk of serious harm to [the plaintiff] and that
they disregarded that risk by failing to take reasonable
measures to protect him.” Richko, 819 F.3d at 916;
(citing Farmer, 511 U.S. at 842). This rubric has both an
objective and subjective component. Richko, 819 F.3d
at 915, (citing Farmer, 511 U.S. at 835-38).
[A plaintiff] can satisfy the objective component
by showing that, absent reasonable precautions,
an inmate is exposed to a substantial risk of
serious harm. The subjective component requires
[the plaintiff] to show that (1) “the official being
sued subjectively perceived facts from which to
infer a substantial risk to the prisoner,” (2) the
official “did in fact draw the inference,” and (3) the
official then disregarded that risk. Because
government officials do not readily admit the
subjective component of this test, it may be
demonstrated in the usual ways, including
inference from circumstantial evidence.
Richko, 819 F.3d at 915-16 (citations omitted).
Defendants assert Plaintiff cannot prove the
elements of a failure to protect claim because he can
prove neither the objective nor the subjective
components of the failure-to-protect analysis. [Doc. 68,
Defs’ br. at 22]. Since Plaintiff must present evidence to

55a
satisfy both components to defeat Defendants’ motion
for summary judgment, the Court will focus on
Defendants’ stronger argument, i.e., that Plaintiff has no
evidence to support the subjective component. Plaintiff
contends he does have evidence to show that the
individual Defendants knew Mathis, Murray and Byford
presented a substantial risk of serious harm to him:


“Plaintiff asserts that records show Mathis, who
committed the assaults on October 11, 2015, has
shown a pattern of predatory behavior against
other inmates, and has been brought up on
disciplinary charges six times.” [Doc. 69, Pl.’s br.
at 15]. In support of this last contention
regarding disciplinary charges, Plaintiff refers to
Defendants’ Response to Request for Production
No. 5.

Defendants’ Response to Request for Production No.
5 states, “[a]ttached is a DVD containing all responsive
documents to this Request up to the date of June 7,
2017.” [Doc. 70-6]. Insofar as it can tell, the Court does
not have these documents. There is an exhibit attached
to Plaintiff’s brief entitled, “Case of Geremy Mathis:
Disciplinary hearings” with a list of six “cases.” [Doc. 705]. But this list provides no information regarding the
type of disciplinary charges against Geremy Mathis.
The list indicates one case was dismissed because Mathis
was released from jail prior to the hearing. The
remaining cases were dismissed because, “[f]ailed to
follow policy—Did not have hearing in policy time
frame.” [Doc. 70-5]. Only two of the “cases” occurred
before the October 15, 2015 assaults. [Id.] This
information is not evidence that the Defendants would

56a
have known Mathis presented a substantial risk of
serious harm to other inmates.


Plaintiff stated in his deposition that he told
guards that Mathis had threatened to beat up
others who did not participate in the riot.

Plaintiff could not identify the guards, so it is
unknown whether the guards he told were the individual
Defendants in this case. Also, Plaintiff was a participant
in the riot so he would not have been targeted by Mathis.
Moreover, Plaintiff explicitly denied telling any guard
prior to either of the assaults on October 11, 2015, that
he was afraid of Mathis, Murray, and Byford. Rather, he
told unidentified guards that the pod “was crazy” and he
wanted to be moved. This information does not convey
concern about one’s safety.


Plaintiff asserts Defendants knew Plaintiff and
Mathis had been in an altercation on the morning
of October 11, 2015.

The first assault on October 11, 2015, took place
inside the cell. As previously mentioned, the cell has a
solid door except for a very narrow window. There is no
evidence that the officers could see inside the cell when
the first assault happened. Plaintiff was able to push the
attackers out of his cell where they continued to “have
words.” Call’s incident report, which states he saw a
verbal altercation, supports Plaintiff’s own deposition
testimony that once outside the cell, the altercation was
verbal—not physical. The guards took reasonable action
by asking Plaintiff what was going on, but Plaintiff did
not tell them he had been assaulted or that he was afraid.
He said he did not know what was going on. This

57a
interaction was not enough to apprise Defendants that
Plaintiff was at substantial risk of serious harm. After
the guards left the dayroom, Plaintiff did not use the
intercom inside his cell to report his assault, not even
after he heard Mathis, Murray, and Byford say they
were going to kill him.


Plaintiff was assaulted a second time on October
11, 2015.

As with the first assault, the second assault took
place inside Plaintiff’s cell and would not have been
witnessed by guards outside the pod. Further, Plaintiff
did not say he yelled for help while it was occurring, and
he did not report the assault when he exited the cell and
sat down at the table. Moments later, before he could be
hit again, Officer Keith grabbed him and placed him
against the wall to protect him. At that point he was
taken for a medical evaluation and removed to another
pod.
Based on the evidence presented by Plaintiff, the
Court concludes that Plaintiff cannot meet the
subjective component of the applicable rubric. Plaintiff
has presented no evidence that, prior to each assault on
October 11, 2015: (1) the individual Defendants knew
facts from which to infer Mathis, Murray, and Byford
presented a substantial risk of serious harm to the
Plaintiff; (2) the individuals Defendants did in fact draw
the inference; and (3) the individual Defendants then
disregarded that risk. Rather, the evidence presented
by Plaintiff demonstrates that, when the officers finally
understood that Mathis presented a physical threat to
Plaintiff, they intervened, took Plaintiff for medical care,
and removed him permanently from that pod.

58a
Because there was no underlying constitutional
violation, Plaintiff has no constitutional claim against
Coffee County. Thomas v. City of Columbus, Ohio, 854
F.3d 361, 367 (6th Cir. 2017) (“Because no constitutional
violations occurred, the district court properly granted
summary judgment on Mr. Thomas’s failure-to-train
claim against the city and Chief Jacobs. For a
municipality to be liable under 42 U.S.C. § 1983, a
plaintiff must show harm ‘caused by a constitutional
violation.’”); see also Murray v. Harriman City, No.
3:07–CV–482, 2010 WL 546590, at *7 (E.D. Tenn., Feb.
10, 2010) (“the court has found that the arresting officers
did not violate the plaintiff’s civil rights; therefore,
plaintiffs have not stated a viable claim for a § 1983
violation against the City of Harriman.”) Therefore,
Defendants are entitled to judgment as to Plaintiff’s
failure to protect claim asserted in Count I.
ii. Deliberate Indifference
Medical Needs

to

Serious

Plaintiff also alleged in Count I of the Amended
Complaint that Coffee County, as well as QCHC, had
acted with deliberate indifference to his serious medical
needs in violation of the Fourteenth Amendment. The
factual basis for this claim against Coffee County is the
same as the factual basis for this claim against QCHC
which was dismissed by the District Court. It is not
clear to the Court that Plaintiff concedes he no longer
has such a claim against Coffee County. Since the same
factual conducts underpins both claims and the standard
of constitutional analysis is the same for Coffee County
as it was for QCHC, the District Court’s decision
dismissing Plaintiff’s claim against QCHC applies

59a
equally to the medical needs claim against Coffee
County. See e.g., Whiteside v. Duke, 2019 WL 2578260,
at *4 (W.D. Tenn. 2019) (the court applied the same
constitutional standard for a medical care claim to a
private entity providing health care in a prison as it
would to a municipality.) See also Johnson v. Corr. Corp.
of Am., 26 F. App’x 386, 388 (6th Cir. 2001); Eads v. State
of Tenn., No. 1:18-cv-00042, 2018 WL 4283030, at *9
(M.D. Tenn. Sept. 7, 2018). Consequently, to the extent
Plaintiff continues to assert it, the Court concludes the
Fourteenth Amendment claim against Coffee County
for deliberate indifference to serious medical needs lacks
merit and shall be dismissed.

3. Count IV—Claim Arising from the Event
on January 14, 2017
Plaintiff alleges Cody Faust used excessive force
when shooting him with a pepperball launcher on
January 14, 2017. The Due Process Clause of the
Fourteenth Amendment protects a pretrial detainee
from the use of excessive force that amounts to
punishment. Kingsley v. Hendrickson, 135 S.Ct. 2466,
2473 (2015). To prevail on a Fourteenth Amendment
excessive force claim, “a pretrial detainee must show
only that the force purposefully or knowingly used
against him was objectively unreasonable. Id. The
“objective reasonableness turns on the facts and
circumstances of each particular case.” Id. (citation
omitted). The Kingsley Court articulated the factors a
court must consider when evaluating such a claim:
A court must make this determination from the
perspective of a reasonable officer on the scene,
including what the officer knew at the time, not

60a
with the 20/20 vision of hindsight. A court must
also account for the “legitimate interests that
stem from [the government’s] need to manage the
facility in which the individual is detained,”
appropriately deferring to “policies and practices
that in th[e] judgment” of jail officials “are needed
to preserve internal order and discipline and to
maintain institutional security
Considerations such as the following may bear on
the reasonableness or unreasonableness of the
force used: the relationship between the need for
the use of force and the amount of force used; the
extent of the plaintiff’s injury; any effort made by
the officer to temper or to limit the amount of
force; the severity of the security problem at
issue; the threat reasonably perceived by the
officer; and whether the plaintiff was actively
resisting. We do not consider this list to be
exclusive. We mention these factors only to
illustrate the types of objective circumstances
potentially relevant to a determination of
excessive force.
Id. (internal citations omitted) (brackets original).
On January 14, 2017, guards heard—over the
intercom in the pod where Plaintiff was located—some
inmates saying they were going to stab someone.
Concerned that someone was about to be seriously
injured or killed, the guards assembled to make entry
into the pod. The Tower ordered everyone in the pod to
get down on the floor. Faust was advised that some

61a
inmates were refusing to follow the order.4 From the
perspective of a reasonable officer, use of the pepperball
launcher was reasonable because:

4



When Faust entered the pod, Plaintiff was still
sitting at the table. A reasonable officer on the
scene would have concluded that Plaintiff was
refusing the prior order to get on the floor.



Faust had a legitimate institutional interest to
maintain order and protect other inmates.
Someone in the pod had a shiv and intended to
stab another inmate. Immediate compliance with
the order to get down could prevent violence.



Officers needed the inmates on the floor to safely
search for the shiv.



A pepperball launcher is nonlethal force.
Plaintiffs injuries were relatively minor—bruises
that lasted a few days.



Use of a pepperball launcher allowed Faust to
avoid dangerous direct contact with a
noncompliant inmate who might have a shiv.



Plaintiff continued to delay his compliance,
standing up, talking back to Faust, turning
around, trying to remove his poncho. Use of the

Plaintiff stated in his declaration that the pod did not have
loudspeakers, but this statement was made in relation to the pod in
which he was incarcerated at the time of the October 11, 2015
assaults. [See Doc. 70-2, Cretacci Decl. ¶ 5]. He was moved to
another pod permanently after the October 11, 2015 assaults.

62a
pepperball launcher again was reasonable for the
same reasons listed above.


Once Plaintiff got on the ground, Faust did not
shoot him again.

In other words, under the circumstances—given the
information that Faust had at the time and the
legitimate need to protect inmates from assault by
another inmate with a deadly weapon—the force used by
Faust against Plaintiff was not constitutionally
excessive. Once again, because there was no underlying
constitutional violation, Plaintiff has no constitutional
claim against Coffee County. Thomas v. City of
Columbus, Ohio, 854 F.3d 361, 367 (6th Cir. 2017). Faust
and Coffee County are entitled to judgment as to Count
IV.
IV. Conclusion
For the reasons stated herein, Defendants’ Motion
for Summary Judgment is GRANTED. Plaintiff’s
action shall be dismissed in its entirety and a judgment
entered in favor of Defendants.
ENTER.
/s/ Christopher H. Steger
UNITED STATES
MAGISTRATE JUDGE

63a
Appendix C
Case No. 20-5669
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
BLAKE CRETACCI
Plaintiff - Appellant
v.
JOE CALL, Coffee County Deputies; BRIAN KEITH,
Coffee County Deputies; JARED NELSON, Coffee
County Deputies; JESSE HARDEN, Coffee County
Deputies; COFFEE COUNTY, TN; CODY FAUST
Defendants - Appellees
BEFORE: SUHRHEINRICH, MCKEAGUE, and
READLER, Circuit Judges
Upon consideration of the petition for rehearing
filed by the appellant,
It is ORDERED that the petition for rehearing
be, and it hereby is, DENIED.
Judge Readler adheres to his concurrence.
ENTERED BY ORDER
OF THE COURT
Deborah S. Hunt, Clerk
Issued: March 17, 2021

/s/

Deborah S. Hunt

